<html>
<title> - STATUS OF EFFORTS TO DEVELOP IRAQI SECURITY FORCES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                         [H.A.S.C. No. 110-107]
 
           STATUS OF EFFORTS TO DEVELOP IRAQI SECURITY FORCES 

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                            JANUARY 17, 2008

                                     
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

44-094 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001 



                                     







                   HOUSE COMMITTEE ON ARMED SERVICES
                       One Hundred Tenth Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          DUNCAN HUNTER, California
SOLOMON P. ORTIZ, Texas              JIM SAXTON, New Jersey
GENE TAYLOR, Mississippi             JOHN M. McHUGH, New York
NEIL ABERCROMBIE, Hawaii             TERRY EVERETT, Alabama
SILVESTRE REYES, Texas               ROSCOE G. BARTLETT, Maryland
VIC SNYDER, Arkansas                 HOWARD P. ``BUCK'' McKEON, 
ADAM SMITH, Washington                   California
LORETTA SANCHEZ, California          MAC THORNBERRY, Texas
MIKE McINTYRE, North Carolina        WALTER B. JONES, North Carolina
ELLEN O. TAUSCHER, California        ROBIN HAYES, North Carolina
ROBERT A. BRADY, Pennsylvania        W. TODD AKIN, Missouri
ROBERT ANDREWS, New Jersey           J. RANDY FORBES, Virginia
SUSAN A. DAVIS, California           JEFF MILLER, Florida
RICK LARSEN, Washington              JOE WILSON, South Carolina
JIM COOPER, Tennessee                FRANK A. LoBIONDO, New Jersey
JIM MARSHALL, Georgia                TOM COLE, Oklahoma
MADELEINE Z. BORDALLO, Guam          ROB BISHOP, Utah
MARK E. UDALL, Colorado              MICHAEL TURNER, Ohio
DAN BOREN, Oklahoma                  JOHN KLINE, Minnesota
BRAD ELLSWORTH, Indiana              CANDICE S. MILLER, Michigan
NANCY BOYDA, Kansas                  PHIL GINGREY, Georgia
PATRICK J. MURPHY, Pennsylvania      MIKE ROGERS, Alabama
HANK JOHNSON, Georgia                TRENT FRANKS, Arizona
CAROL SHEA-PORTER, New Hampshire     BILL SHUSTER, Pennsylvania
JOE COURTNEY, Connecticut            THELMA DRAKE, Virginia
DAVID LOEBSACK, Iowa                 CATHY McMORRIS RODGERS, Washington
KIRSTEN E. GILLIBRAND, New York      K. MICHAEL CONAWAY, Texas
JOE SESTAK, Pennsylvania             GEOFF DAVIS, Kentucky
GABRIELLE GIFFORDS, Arizona          DOUG LAMBORN, Colorado
ELIJAH E. CUMMINGS, Maryland
KENDRICK B. MEEK, Florida
KATHY CASTOR, Florida
                    Erin C. Conaton, Staff Director
                Michael Casey, Professional Staff Member
               Stephanie Sanok, Professional Staff Member
                    Caterina Dutto, Staff Assistant










                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2008

                                                                   Page

Hearing:

Thursday, January 17, 2008, Status of Efforts to Develop Iraqi 
  Security Forces................................................     1

Appendix:

Thursday, January 17, 2008.......................................    43
                              ----------                              

                       THURSDAY, JANUARY 17, 2008
           STATUS OF EFFORTS TO DEVELOP IRAQI SECURITY FORCES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Saxton, Hon. Jim, a Representative from New Jersey, Committee on 
  Armed Services.................................................     2
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Dubik, Lt. Gen. James, U.S. Army, Commander, Multi-National 
  Security Transition Command--Iraq..............................     5
Kimmitt, Mark, Deputy Assistant Secretary of Defense for Middle 
  Eastern Affairs, Office of the Secretary of Defense............     4

                                APPENDIX

Prepared Statements:

    Dubik, Lt. Gen. James........................................    47

Documents Submitted for the Record:

    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:

    [There were no Questions submitted.]

           STATUS OF EFFORTS TO DEVELOP IRAQI SECURITY FORCES

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                        Washington, DC, Thursday, January 17, 2008.
    The committee met, pursuant to call, at 10:06 a.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Good morning.
    Today, the Armed Services Committee is holding the very 
first hearing of our new year. And let me take this opportunity 
to welcome my colleagues back and hope the continuation will be 
productive in our usual bipartisan manner. I was pleased--I 
know other members of the committee are as pleased as I--with 
the passage of our bill once again, after the Presidential veto 
yesterday, and a special thanks to each of you for the hard 
work that you did.
    And hopefully the Senate will take it up immediately on its 
returning into session next week and the President sign it into 
law, into the much needed help, particularly for our personnel.
    We are meeting today to receive an update on the status of 
efforts to develop Iraqi Security Forces (ISF). Our witnesses 
today are General James Dubik, the Commander of the Multi-
National Security Transition Command in Iraq; and Mark Kimmitt, 
Deputy Assistant Secretary of Defense for the Middle East.
    We welcome both of you.
    And, General Dubik, a special thanks to you for appearing 
before us today. You are home on leave. We appreciate your 
willingness to come before us and update our committee on the 
Iraqi Security Forces.
    But more than thanking you, we wish to thank your nice 
wife, who we met some years ago at Fort Hood, Sharon Basso, for 
not only tolerating your presence on leave, but being with us 
today. And we appreciate your being with us so very, very much.
    Security in Iraq has improved over the past year due to 
nationally heroic efforts. Anbar sheiks deciding to fight the 
al Qaeda, the cease-fire declared by al-Sadr, and we should all 
be proud of our troops and we were very grateful for their 
progress.
    The question now is: How do you sustain it? And part of 
that solution will depend on political progress in Iraq, but 
part will depend on developing an effective, non-sectarian 
Iraqi Security Force. So that is why we are here today, to hear 
our witnesses.
    I met with the Iraqi defense minister--and if I pronounce 
his last name correctly--Qadir, in my office earlier this week. 
He expressed his personal belief that Iraq might be able to 
take responsibility for their own internal security as early as 
the first quarter of 2009 and would probably be able to handle 
their external security by 2018 or so.
    The 2009 timeline is very optimistic, and I am sure we are 
all committed to helping them meet it. I hope our witnesses 
will address a realistic timeline today.
    Dr. Snyder held a hearing yesterday on his subcommittee. 
And in that testimony, as Dr. Snyder relayed it to me--I was 
there to hear part of the hearing, and I was not able to come 
back for the question-and-answer because we were taking our 
defense bill up on the floor.
    But evidently--and, Dr. Snyder, correct me if I am wrong--
General McCaffrey said something to the effect that he is more 
and more inclined to think that a timeline is necessary or 
possible.
    Later, during the question-and-answer, I hope you would 
clarify that because I was not there, but I appreciate your 
mentioning that to me, and I would like to think out loud with 
you gentlemen about that issue of a timeline.
    We in Congress have been discussing it ad infinitum, as you 
may know from the various debates that we had.
    Well, thank you for being with us today. It is special for 
you to take part of your leave time, much needed leave time, 
and I know how arduous your work is, General.
    And Secretary Kimmitt, thank you, and you carry out a great 
family tradition and I compliment you on that, as well as your 
work for us today.
    Mr. Saxton.

STATEMENT OF HON. JIM SAXTON, A REPRESENTATIVE FROM NEW JERSEY, 
                  COMMITTEE ON ARMED SERVICES

    Mr. Saxton. Mr. Chairman, thank you very much, and thank 
you for holding this hearing today. I think it is especially 
important that we hold this hearing because, simply put, the 
more we know about the Iraqi capabilities, both in terms of 
their strengths and their weaknesses, the better off we are in 
terms of our capability of dealing with it.
    And General Dubik, it has been duly noted by the chairman 
that you and Mrs. Dubik have cut your R&R short and, again, we 
appreciate that very much, because before you return to the 
theater of operations, in your vital mission of assisting the 
Iraqi Government in developing, organizing and training, 
equipping and sustaining Iraqi forces, for you to be here today 
is very valuable to us. So we thank you for being here.
    Secretary Kimmitt, thank you for being here, as well.
    Since Operation Iraqi Freedom (OIF) began in 2003, the 
United States Government has made significant resource 
investments, in terms of manpower and funding, in the efforts 
to train and equip Iraqi Security Forces.
    According to State and Defense Department data, by December 
1st of last year, there were roughly 440,000 Iraqi forces 
trained and equipped by coalition forces, including over 
190,000 military personnel, over 244,000 Ministry of Interior 
police and border enforcement personnel, and some 3,500 special 
operations forces, who are very proud Iraqis.
    I understand that these forces do not include the 
facilities protection service personnel or some of the 70,000 
concerned local citizens, Iraqis, who have emerged from the 
bottom-up process that has spread from Anbar province across 
Iraq.
    These local citizens have taken up responsibility for 
providing security and stability in their own neighborhoods, 
and I understand that about 20,000 of these individuals may be 
integrated into the Iraqi Security Forces.
    There is a strong temptation to look at these numbers of 
Iraqi forces and ask why they cannot fully shoulder the burden 
of combating insurgents and terrorists within Iraq's borders. 
Yet, we must remember the unique challenges faced by the 
Government of Iraq, Iraqi forces themselves, and General 
Dubik's staff, challenges which we have frequently discussed in 
this hearing room, including rampant corruption and sectarian 
violence throughout the military and security forces.
    Retired General Jim Jones and other members of the 
congressionally-mandated Independent Commission on the Security 
Forces of Iraq even went so far as to recommend the dissolution 
of the entire segment of security forces--the national police 
service, to be specific--because of frequent and widespread 
allegations of corruption and other illegal activities.
    Yet there are also challenges which don't grab attention in 
the same way as corruption and violence.
    I would like, General Dubik and Mr. Secretary, for you to 
address three areas today, if you would.
    First, the combat capabilities of Iraqi Security Forces. I, 
for one, take heart in the optimism that those Iraqi officials 
who are nearest to the defense and security institutions, such 
as the defense minister, who met earlier this week with members 
of this committee and expressed his strong personal conviction 
that if current positive security trends continue, the Iraqi 
Security Forces, both military and police, would be able to 
take on responsibility for Iraq's internal security beginning 
early in 2009.
    Would you agree with this assessment and what steps 
coalition forces and the Government of Iraq are taking to 
ensure that we can transition primary responsibility for 
internal security to the Iraqis at a fairly early date?
    Moreover, it is clear that Iraq is situated in a 
challenging neighborhood. And the Iraqi minister mentioned that 
it could take more than 10 years for Iraqi forces to assume 
responsibility for Iraq's external security.
    Would you agree with this assessment and what steps are we 
taking over the longer term to ensure the successful transition 
of these responsibilities?
    The second area that I think is extremely important has to 
do with logistic capabilities of Iraqi Security Forces. We 
sometimes hear that Iraqis do not share what we call the U.S. 
military's ``culture of maintenance.''
    The Government Accountability Office (GAO) and other 
experts have highlighted difficulties in creating workable 
logistics and depot systems within Iraq. Could you please talk 
about the challenges that the coalition forces and the 
Government of Iraq are encountering in developing Iraqi 
Security Forces that are capable of maintaining the equipment 
that they receive?
    For example, I am told that we are reportedly purchasing 
about 8,500 up-armored vehicles for them through the Iraqi 
Security Forces Fund. What assurances do we have that they will 
maintain these vehicles in a proper way and that they will 
retain control of them and not introduce them into the black 
market or other nefarious areas?
    Third, the integration of Concerned Local Citizens (CLCs) 
into the Iraqi forces is an important subject. The Anbar 
awakening that occurred last year has clearly spread across the 
nation and tens of thousands of local citizens have stood up 
and begun to patrol their own neighborhoods.
    Many of these citizens have asked to be incorporated into 
the Iraqi Security Forces. Given that a significant number of 
these individuals may have previously been involved in militias 
and the insurgency, what vetting system is in place to ensure 
that we don't introduce harmful elements into the Iraqi 
Security Forces?
    Again, let me just say thanks for being here today, and we 
look forward to your testimony.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    In order for our testimony to begin at this time, we begin 
with Deputy Assistant Secretary Kimmitt, followed by General 
Dubik.

   STATEMENT OF MARK KIMMITT, DEPUTY ASSISTANT SECRETARY OF 
DEFENSE FOR MIDDLE EASTERN AFFAIRS, OFFICE OF THE SECRETARY OF 
                            DEFENSE

    Secretary Kimmitt. Well, Mr. Chairman, Congressman Saxton, 
thank you for the opportunity to be here today.
    I would also like to acknowledge the great work that has 
been done by General Jim Dubik and all the men and women in 
uniform working to train, equip, and modernize the Iraqi 
Security Forces.
    I, too, would also like acknowledge Sharon Basso, here to 
support Jim, and all the other spouses and families who support 
their spouses, for the sacrifices they make, for the support 
they provide, for the love they give, while their spouses are 
deployed abroad.
    I have known Lieutenant General Jim Dubik for 30 years. We 
were young officers together at Fort Lewis, Washington, and his 
reputation as a leader is only surpassed by his reputation as 
an innovator and a forward-thinker.
    He has been at the leading edge of transforming the U.S. 
military, particularly the U.S. Army. And I think the Army that 
you see on the ground today, the U.S. Army, in many ways, 
reflects the thinking and the innovation from Lieutenant 
General Dubik.
    He is uniquely qualified to take that same expertise and 
that same forward-thinking in the development of the Iraqi 
Security Forces. And there is probably no one better in the 
U.S. Army to be sitting here today to talk about the 
development of the Iraqi Security Forces, and we are certainly 
honored by the presence of him and the presence of Sharon.
    And with that, let me pass it over to Jim for his opening 
remarks.

STATEMENT OF LT. GEN. JAMES DUBIK, U.S. ARMY, COMMANDER, MULTI-
           NATIONAL SECURITY TRANSITION COMMAND--IRAQ

    General Dubik. Thank you, Chairman Skelton, Representative 
Saxton, distinguished members of the committee. Thanks to each 
of you for the opportunity to appear before you today.
    I am delighted to have with me my lovely and, I would add, 
talented wife, Sharon Basso, who has been and is a steadfast 
supporter of all of our deployed troops and their families and 
spouses.
    Like you, she appreciates the impact of our current pace of 
operations, that is, that impact on our families and our 
people. And like you, she has worked hard over the years to 
mitigate that impact.
    I would like to thank her here publicly for her support and 
her efforts.
    I would also like to thank you for your continued support 
of the men and women in uniform, for the repeated visits that 
many of you have made into theater, and for the hard work that 
you have done on our behalf.
    I am sure I don't need to tell you how much it means to our 
soldiers and our civilians to see their representatives with 
them in theater. All of us who are helping the Iraqis develop 
their ability to defend themselves and their citizens and their 
newfound freedom appreciate your work.
    The work in developing security forces is hard, it is slow, 
and, if I may say so, it is among the most significant and 
rewarding that I have been able to do in my career. Personally, 
I am proud of it. And I know our troops and our civilians are 
proud of it.
    But I want to assure you, most importantly, the Iraqis are 
proud of what they are accomplishing. They are proud of 
themselves. They are in the fight. They are committed to their 
own success.
    And we are meeting some success, as you noted, Mr. 
Chairman. To summarize the main point of my testimony, the 
success is mixed.
    The security forces are, in fact, bigger and better than 
they have been at any time since we have begun this effort, but 
the progress, of course, is mixed with some continuing 
challenges. It is my intent today to describe to you both the 
successes and the challenges.
    In the last year, the Iraqi Army has grown by almost 
550,000 soldiers. There are 15 more combat battalions in the 
lead at the end of the year than there were at the beginning of 
the year.
    The national police has grown by 7,500 police, with nine 
more battalions rated at the operational readiness assessment 
(ORA) Level Two than there were at the beginning of the year. 
And the Iraqi police themselves have grown by about 45,000.
    So much of this growth has taken place throughout the year; 
a good amount has taken just in the last six months.
    I attribute this growth and this improvement to three major 
areas. First, the opportunities that have arisen from the 
increased offensive operations conducted by conventional forces 
coalition, special operations forces coalition, as well as 
Iraqi Security Forces, conventional and special.
    Also, to the rejection of al Qaeda and other extremists by 
most of the Iraqi population. More people, in fact, want to 
serve. More people feel invested in their own future.
    The second major cause, from my perspective, is the effort 
of the Government of Iraq to consolidate their security 
services under the Ministries of Defense and Interior.
    And the third is the desire of the Government of Iraq to 
create a size of a security force capable of providing their 
own security. As I mentioned, we have seen significant growth 
across the board, and we are seeing the Iraqis want to take 
more responsibility for battle space and doing so.
    Indeed, I believe that we will see that the total Iraqi 
Security Force by the end of 2008 may exceed 580,000 soldiers, 
sailors, airmen and police.
    This growth is also related to their budget. Iraqis' two 
security ministries, in their budget, they have spent about $2 
billion more a year since 2005. And 2007 will be the second 
year in a row that they will have spent more money for their 
security ministries than the Iraqi Security Force Fund has. And 
we expect that to be the case in 2009.
    Mr. Chairman, the Iraqis still have a lot of work to do, as 
do we. There are many challenges ahead. As I said, this is 
tough work.
    The Iraqi Security Force structure and capability still 
lack some maturity. The ISF, the Iraqi Security Force, has not 
achieved self-reliance in all of the areas of logistics, 
maintenance, and life support.
    Just this past December, the minister of interior adopted 
what he called self-sustaining life support. Further, the joint 
headquarters and the minister of defense have had a level of 
visibility of their maintenance that they did not have just six 
months ago. Both of these are positive signs; both are steps 
forward.
    But the truth is that, right now, they cannot fix, supply, 
arm or fuel themselves completely enough at this point, and 
that is a major effort that we will have ongoing for the next 
several months to change that around.
    The Iraqis also remain reliant on the coalition for too 
many combat enablers. They have fielded more and more 
battalions, but they lack air support, air mobility, engineer 
support, indirect fire support, and other combat enablers.
    Aggressive use of the Foreign Military Sales (FMS) program 
is helping turn that around, but they still must purchase more 
helicopters, mortars, fixed-wing aircraft, artillery, and 
Intelligence, Surveillance, and Reconnaissance (ISR) assets, 
and they must increase their levels of protected mobility to 
achieve the level of self-sufficient combat power that they 
want.
    Of course, such a capability rests, in large measure, on 
sound leadership and here, too, the Iraqi Security Forces are 
slowly improving. The Army, for example, has added, in the past 
year, 1,300 officers and 9,900 non-commissioned officers 
(NCOs).
    But while the numbers are up, as I indicated, there is a 
gap in mid-level leadership positions, particularly in the non-
commissioned officer and field grade officer levels. Developing 
leaders takes not only training, but time.
    As we have observed in our own Army at various times in the 
last 20 or 30 years, gaps in leadership represent real and 
tangible holes in proficiency that can be filled, but not 
easily and not quickly.
    One final word about perspective. While in the command of 
1st U.S. Corps at Fort Lewis, I was asked to grow three Stryker 
brigades, and we encountered in that growth four major 
problems.
    Number one, it was much harder to get leaders to arrive at 
the unit at the right time. Number two, synchronizing leaders 
with arrival of soldiers was difficult.
    Number three, synchronizing the arrival of equipment to the 
training schedule, and, number four, building the base 
structure as fast as you can build a unit.
    It is not surprising, Mr. Chairman, that these are the same 
four problems that the Iraqis are having in growing an army as 
fast as they are growing.
    Also, they are growing an army while at war, while taking 
casualties, while taking losses, while forming a government and 
while developing their own processes in the security 
ministries.
    So we should not underestimate the difficulty of growing 
the security forces.
    I will tell you both the minister of interior and minister 
of defense are tackling these kinds of problems square on. The 
Iraqi Army, as I said, has grown 55,000 soldiers. That equates 
to 2 divisions, 8 brigades and 36 battalions, just in 2007 
alone.
    And the national police have replaced both of their 
division commanders, 10 of 9 brigade commanders, 18 of 28 
battalion commanders, completed unit training, began the 
professional leadership training under the Italian Carabinieri, 
developed their own training center, and have begun training 
and organizing their own organic support brigade.
    As I said, helping the Iraqi Security Forces has been and 
continues to be extraordinarily rewarding work, the most 
rewarding that I have had in my career.
    And I would like to thank you, Mr. Chairman, Representative 
Saxton and the committee, on behalf of all of the soldiers and 
men and women of Multi-National Transition Command Iraq (MNSTC-
I) for your support in this past year.
    [The prepared statement of General Dubik can be found in 
the Appendix on page 47.]
    The Chairman. General, thank you.
    Secretary Kimmitt, thank you for your testimony.
    And, General, a special thanks for your hard work that is 
so very, very important to the future of that country, as well 
as ours.
    We on this committee know full well the strain on the Army, 
as well as the Marines. I guess it falls in the category of 
just old-fashioned readiness, and it is nothing new. We have 
been talking about it within these walls for many, many months.
    And the question always arises as to how we can relieve 
that stress, relieve that strain on the American forces because 
we don't know what is around the corner for future conflicts. 
And as I have pointed out ad nauseam, I know, to my colleagues 
here, that we have had 12 American military conflicts in the 
last 30 years, since I have been in Congress, 4 of which have 
been major in size.
    So everyone asks the question, well, when can they take 
responsibility for their own security, A, internally; B, 
externally. The minister of defense, who was in my office, as I 
had mentioned a few moments ago, said not one, but three times 
during our visit that his personal belief was that the Iraqi 
Security Forces would be able to take responsibility for 
internal security as early the first quarter of 2009.
    And notes were clearly taken, and I know and my memory is 
good and my hearing is good, and that is what he said. And 
Congressman Davis from California was sitting about three feet 
from the defense minister, and her hearing is good and her 
memory is good.
    So with that, would you give us, General--your front line, 
you are with them every day. Is their defense minister 
accurate?
    General Dubik. Well, sir, I will answer in two parts. 
First, the Iraqi Security Forces have taken charge of their own 
security now in 9 of the 18 provinces, 2 more most recently, 
Basra and Karbala, and they are in the lead with 15 more 
battalions than they were at the beginning of the year.
    They are in the fight. They take casualties two and three 
times coalition force and they conduct combat operations even 
during training. So they are very much into the fight.
    Their air force is now conducting about 300 patrols a week, 
up 1,000 percent from just a year ago, and their navy is up 
about 270 percent in the same time period.
    So they are very much wanting to and getting into the fight 
for their security.
    You are right, Mr. Chairman. I do see the minister of 
defense very often while I am in theater. We travel around the 
country. We visit together. We have meetings together 
privately, as well as publicly.
    His discussions with me about their ability to assume 
internal security generally have centered around a period of 
time somewhere between the first quarter of 2009 and the 
beginning of 2012.
    In his discussions with me, he continually raises the point 
that they, the Iraqi Security Forces, must purchase more air 
support, more indirect fire support. They have none now, except 
light 60-millimeter mortars. They must purchase more 
helicopters. They must complete the development of their 
logistics structure.
    And he knows that the purchase of this equipment will take 
several years and then training to become proficient in these 
areas where he has no proficiency right now will take several 
years.
    So internal security, discussions with me, he talks about a 
period first quarter 2009 through sometime 2012. External 
security beyond that, in the 2018-2020 period.
    The Chairman. Mr. Saxton.
    Mr. Saxton. General, thank you.
    I outlined three questions that I had in my opening 
statement, and let me just follow-up on the chairman. The 
chairman shared my enthusiasm for the question that he just 
asked, which was my first question. Let me just follow that up 
by asking this.
    It has been widely reported that the national police were 
experiencing high levels of corruption and criminal behavior. 
Just recently, General Keane testified, actually, yesterday, 
that the minister of interior has taken actions to try to limit 
this through the removal of commanders and officers throughout 
the ranks.
    What is your assessment of corruption in not only the 
national police, but also each segment of the Iraqi Security 
Forces?
    General Dubik. Thank you, sir. With respect to the national 
police, as I said in my opening statement, around the middle of 
2007, April-May-June timeframe, just before the Jones 
Commission came over, the national police commanding general 
had changed out both of his division commanders, replaced them 
both, one Sunni, one Shia.
    He changed out all nine of his brigade commanders and then 
just recently, in the last six weeks, changed another brigade 
commander. So 10 of 9, to improve the quality of leadership. 
And of his 28 battalion commanders, I believe 18 changed out.
    These are significant leadership changes, and they have had 
an effect. Matter of fact, my last discussion with General 
Odierno, before I left, he observed that the quality of the 
national police is improving and the number of negative 
comments in the readiness assessments of his transition teams 
is decreasing.
    The second thing that they have done this year, national 
police, is complete really the first collective unit training 
that they have had. They were formed and not ever trained 
together like army units and just employed in the 2005 and 2006 
time period.
    In 2007, they began the unit training. That is now 
complete, and they have begun, in the fall, to begin the 
training battalion by battalion for leaders that will be done 
by the Italian Carabinieri, the gendarme-like organization from 
Italy, world class.
    So the Jones Commission observations Minister Bulani had 
studied very, very carefully and came to a different conclusion 
because he has a vision, as does the Government of Iraq, of the 
need for national gendarme police once the current fight is 
over for the internal security of Iraq, and he has chosen 
reform rather than disbanding.
    That is a program that is ongoing.
    Mr. Saxton. Thank you.
    General Dubik. And with respect to the minister of 
interior, if I could, sir, he has been very aggressive in his 
internal affairs and Inspector General (IG) functions, 6,000 
internal affairs investigations and of the 6,000, 1,200 have 
resulted in firings and about 500 other disciplinary actions.
    He has opened about 500 IG cases, 61 of which have gone to 
the Iraqi court system, 31 of those ended up with convictions. 
And the reform program is very serious. One of his personal 
aides has been assassinated in the last three months. He has 
had 14 of his internal affairs people killed and another 13 
wounded.
    Those are, of course, catastrophic losses with respect to 
his ministry, but he is no less deterred by his reform program. 
Matter of fact, he is emboldened by these attacks.
    So he acknowledges he has got a problem. He is on a reform 
bent, and he is very aggressive in his reform bent, from my 
perspective.
    Mr. Saxton. Thank you. Could I just get a second quick 
question in, Mr. Chairman?
    The logistics capabilities of the Iraqi Security Forces and 
the issue of maintenance, obviously, we are concerned, as we 
move forward, that we develop and maintain capabilities.
    Could you just comment on logistics and maintenance?
    General Dubik. Yes, sure. This has been a problem for the 
Iraqi Security Forces for a while. It is a matter of choice 
initially. The important items were to build combat units first 
and then enablers and logistics second.
    We are now in that period. On the logistics side, there are 
three major parts--supply, maintenance and life support. In 
December, the minister of defense had declared that they would 
be independent life support and he had been doing that very 
aggressively since then.
    On the food item, they feed all themselves now. They do 
most of their fuel, except for emergency. There is still some 
fuel going from coalition forces to Iraqi Security Forces, but 
mostly for emergency purposes, sometimes for generators. There 
is a difficulty with fuel allocation inside the security 
ministries.
    But we know the Iraqi Security Force Funds fund, in the 
army, only two life support contracts. Both of those contracts 
will be done in the spring of next year.
    On the police side, 14 of the 18 training centers are 
completely under life support, maintenance, funded by the 
ministry of interior, the other 4 that are left. Again, we will 
be out of that business by March and April of 2008.
    So on the life support, pretty good progress in the last 
four months.
    Maintenance is also a mixed picture. On the plus side, the 
Humvee readiness rate is about in the 85-87 percent rate, which 
is not too bad. The backlog of their maintenance has grown 
until about six weeks ago and then it started to flatten off 
the last three weeks. It is starting to drop.
    They have a much better visibility of what they must fix 
and they have a much better visibility of the number of 
mechanics, generator, radio, and vehicle that they have to 
train.
    They now track the number of people in their mechanic 
schools and the number of mechanics tracked by division. This 
is all in anticipation of taking over more of their mechanical 
responsibilities and their maintenance responsibilities.
    They have signed FMS cases to the tens of millions of 
dollars for spare parts, and they are working through the 
difficulties now of creating a spare parts flow system within 
their organizations.
    By the end of 2008, we will have finished building one 
logistics base per division and we will have finished out the 
police. We, meaning the Government of Iraq and MNSTC-I, will 
finish out the regional maintenance facilities for the police 
forces.
    So I expect, if you call me back this time next year, that 
we will have a much different discussion about maintenance than 
we had just six months ago.
    In terms of supply, on the military side, the Taji National 
Depot, which includes a wheeled vehicle, track vehicle, small 
arms repair, generator repair, radio repair, and mechanic 
training, all that is very much on track, being built, will be 
finished the middle to late summer of 2008, and then the 
logistics system from national depot through the regional bases 
five to the individual log bases division will be complete.
    They have begun about four months ago building the motor 
transport regiments and that building of those units and the 
logistics units will also be complete about late summer 2008.
    So we should begin about the beginning of the fall 2008, to 
be in a much better position in logistics, maintenance and life 
support.
    Mr. Saxton. Thank you.
    The Chairman. Thank you, sir.
    The gentleman from Mississippi, Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman. I apologize for the 
delay.
    General, thank you very much for what you do and thank you 
for cutting your very short vacation even shorter to be with 
us.
    I would think--well, one of the things that came to my 
attention is that al Qaeda overplayed their hands. A number of 
sheikhs have shifted their allegiance. But they have also--that 
has come with a price, that our Nation is apparently supplying 
funds to those sheikhs, who, in turn, pay people who used to be 
on the other side to become informants to help us find 
Improvised Explosive Devices (IEDs).
    And to paraphrase General Petraeus, would I rather pay them 
or have them shooting at us, and I guess I would rather pay 
them.
    One of the things I would hope would be a sign that things 
are getting better is, at some point, the Iraqis would be 
paying those sheikhs.
    Toward your efforts, using the same line of thought, what 
percentage of the funds that the Iraqi minister of defense 
allocates for all the functions that you are helping them stand 
up is Iraqi money? What percentage of that is American money?
    General Dubik. Sir, first, on the money business, 2006 was 
the first year that the Government of Iraq security ministries 
outspent the Iraqi security force fund and 2007 will end up the 
same way and, in my belief--correction--2008 will end up the 
same way, if the budget gets passed, as we expect it to get 
passed, the Iraqi budget.
    So they have invested their money into the security 
ministries. I can give you the exact figures for the record, 
but the last two years and we expect the next year, their 
spending will be more than the Iraqi Security Force Fund.
    Mr. Taylor. General, I appreciate that, but I probably was 
not as clear in my question as I should have been.
    Of the total amount of money spent by the Iraqi defense 
forces, what percentage of that would be money that comes out 
of Baghdad, their money, presumably from the oil revenues? What 
percentage of that money comes from the United States Treasury?
    Secretary Kimmitt. Congressman, maybe I can help you with 
that.
    Mr. Taylor. Thank you, sir.
    Secretary Kimmitt. The figures for 2007 were that the 
Iraqis themselves were putting about $7.5 billion into their 
budget. We put in about 5.5. This year, once their budget is 
complete, and we expect the Iraqis to pass their budget within 
the coming weeks, they can't go out of session until they pass 
it, they will have put $9 billion and we would have put $3 
billion in programs for the year.
    Now, that is a fairly significant figure. They have a Gross 
Domestic Product (GDP) of about $63 billion. So their gross 
domestic product, about 15 percent of that goes to their 
defense expenditures. In their budget itself, they have roughly 
a $40 billion budget. About 25 percent of that budget is 
consumed by their defense expenditures.
    The minister of finance, Bayan Jabr, the former minister of 
interior, has been very forward-leaning on trying to convince 
his council of representatives, council of ministers on the 
need for increasing that figure.
    Serendipitously for them, unfortunately for us, oil prices 
continue to rise. They are beneficiaries of that increased oil 
expenditures and they are also beneficiaries of the fact that 
they have taken tough actions to increase their oil output, as 
well.
    So we would expect, this year, they put in three dollars 
for every one dollar that we put in and in subsequent years, we 
would expect and are advocating that the Iraqis themselves put 
more and more--take on more and more of the total defense 
burden for their country.
    Mr. Taylor. Mr. Secretary, thank you for an excellent 
answer. I guess my question would be to what extent is the Bush 
Administration trying to draw a line where there will be an 
effective date for the Iraqis to pay for their own defense.
    Secretary Kimmitt. Well, it is a very good question, 
Congressman, and what I would say is that the Administration 
remains committed to not only accelerating progress on the 
ground by our troops, but, frankly, every cent that we add on 
top of the Iraqis' defense budget accelerates the time when 
those functions, as General Dubik laid out, can be taken over 
by the Iraqis themselves.
    So we have got to balance the need for making sure that the 
Iraqis have the capacity to do this themselves, but if we 
expect them to pay for everything, that will slow down the time 
when we can actually conduct a full transition to Iraqi 
security responsibilities.
    Mr. Taylor. Last question. I was recently in Kuwait. I was 
somewhat taken aback at how much the Kuwaitis are charging the 
American military for fuel. It was of no better price than I 
would pay at the pump in Mississippi.
    Do the Iraqis at least provide all of their own fuel for 
their defense forces?
    Secretary Kimmitt. They do and what I would also articulate 
is that we have an agreement with Kuwait. There are some 
aspects of the fuel that they provide to us at a very reduced 
rate. I think it is somewhere on the order of 80 cents per 
gallon.
    Mr. Taylor. Sir, I would disagree with you. That doesn't 
jive with the numbers I saw.
    Secretary Kimmitt. Congressman, on that percentage of the 
fuel that has been agreed to for the defense, in so many terms, 
an agreed upon amount of fuel that is provided every month to 
those forces that are contributing to the defense of Kuwait.
    It is true that the majority of the fuel that we purchase 
from Kuwait that is used inside of Iraq is provided at the 
market rate, but there is a significant amount of fuel that is 
provided by the Kuwaiti government in accordance with our 
cooperation agreements that is significantly reduced for that 
amount that is contributing to the defense of Kuwait.
    It is an issue that we continue to talk to Kuwait about. It 
is our view that all of those forces, whether they are semi-
stationed in Kuwait, none are permanently stationed, or those 
transiting into Iraq, should receive that fuel at a reduced 
rate, and that is continuing dialogue that goes on between our 
Government and the Government of Kuwait.
    Mr. Taylor. I would appreciate it if you would provide 
those details to the committee.
    Thank you, Mr. Chairman.
    Secretary Kimmitt. Be glad to, sir.
    The Chairman. Thank the gentleman.
    The gentleman from New York, Mr. McHugh.
    Mr. McHugh. Thank you, Mr. Chairman.
    Gentlemen, let me add my words of welcome and appreciation 
to both of you. General, I particularly tip the hat to you and 
your wife for interrupting that R&R, so valuable an opportunity 
and you find yourself here. We deeply appreciate it.
    Just to go back to a point that a number of my colleagues, 
including my friend from New Jersey, who, in his opening 
statement, began to talk about these things, let us revisit the 
national police force just for a second.
    General, back in 2006, General Dempsey noted that about 20 
to 25 percent of the Iraqi national police force, in his words, 
``needed to be weeded out.'' We had just completed the second 
phase of retraining. As you noted several times here today, you 
are beginning the phase three based on the Italian model.
    What would the figure be now from General Dempsey's 20 to 
25 percent? How do you think we are doing and how far do we 
have to go?
    General Dubik. Thank you, Mr. Congressman.
    Part of the change-out in leadership included, more 
recently, about 1,300 national policemen eliminated from the 
national police services. That number is--I don't know what 
percentage that would be of the now 30,000 police, but that is 
an instance of the commanders and the national police 
continuing to want to raise the quality of their force.
    They also want to look at the nonsectarian nature of their 
leadership. As I mentioned, in the two division commanders, one 
is Sunni and one is Shia. At the brigade level, the split is 
about 30 percent to 70 percent, 30 Sunni, 70 percent Shia.
    At the battalion level, it is about 20 to 80. So relatively 
representative of the split in the population. Both the 
minister of interior, Minister Bulani, and the commanding 
general of the national police, General Hussein, are very 
attentive to the fact that they need a national police, not a 
sectarian police, and they are also very attentive to the need 
of continuous reform in training and leadership, to the point 
that they created their own training center now in Numaniyah so 
that they can provide the advanced national police training 
after initial recruit training, and they have begun the plans 
for a national police leadership school.
    So they continue professional development and education in 
an iterative way over time. I don't know where General 
Dempsey--how he chose 20 percent, so I can't really comment on 
that one.
    Mr. McHugh. To 25, he gave himself a little leeway there.
    Phase three, then, I assume, is more than just a 
retraining. It is also a re-bluing in that you are still 
vetting very heavily, and the Carabinieri have that as a 
primary objective, I assume.
    Is there a phase four plan?
    General Dubik. Phase three will take a while. But there is 
a phase four and that is a desire to regionalize the national 
police once they are able to get out of Baghdad, which now most 
of them are in battle space in Baghdad, to regionalize them 
north, central, south, and west, very similar to the way the 
Carabinieri have regionalized themselves in Italy, and to 
provide backup for local police, so that once the 
counterinsurgency is over, the internal security of the nation 
of Iraq can be handed over to the police forces and the 
military forces can get out of the business of internal 
security.
    Mr. McHugh. Thank you. Let me just squeeze in one last 
question.
    As we review materials on some of the challenges faced both 
in the Ministry of the Interior (MOI) and the Ministry of 
Defense (MOD), absenteeism, ability to know who is showing up 
and variations of those kinds of challenges, every time in my 
eight visits there when we talked about the lack of readiness 
of the Iraqi forces, one of the biggest reasons given was that, 
``Well, you know, there is no banking system and these people 
have to leave to get their paychecks home to their families,'' 
et cetera, which seems legitimate.
    I am just curious. Is anyone looking at the revitalization 
and restructure of a banking system as part of your initiative? 
It is certainly critical to the economy of Iraq, but it seems 
to me, at least based on what we have been told, that if you 
had a reliable banking system available to both MOI and MOD 
personnel, you could at least take away a large number of the 
excuses for absenteeism.
    General Dubik. Yes, sir. Ambassador Charlie Reis does have 
that in his portfolio as economic development. I don't think 
the revitalization of the banking system will be any near-term 
success.
    So I expect that we will continue to have about 23 percent 
of the Iraqi Security Forces gone at any one time for leave. 
Their absent without leave (AWOL) rate, actually, in the last 
several months, is only 1.2 percent per month and that is a 
relatively low AWOL rate and significantly different than about 
18 months ago.
    The Chairman. Dr. Snyder, please.
    Dr. Snyder. Thank you, Mr. Chairman.
    General Dubik, good morning. I wanted to ask, as you are 
looking ahead, Mr. Skelton asked you about the prospects of the 
internal security in early 2009--all of it being taken over by 
the Iraqi Security Forces.
    Mr. Skelton also mentioned this issue of General 
McCaffrey's comment yesterday that--I think it was more in the 
context of as a new Administration comes in--there will be 
certainly a fresh look at what is going on and that he could 
foresee the possibility of a more formal timeline in terms of 
U.S. involvement, which, as he said, he was much more receptive 
to in that context than he has been in the past.
    I don't want to put words in his mouth, but I think that is 
what he was talking about.
    But as you look ahead, for planning, at some point, 
timelines are going to have to be part of good planning, are 
they not? You have Provincial Reconstruction Teams (PRTs) and 
embedded PRTs. We have civilian parts of our government that 
want to continue to do good work, perhaps in an increased 
capacity as the security situation improves.
    Don't we have to have some kind of timeline at some point 
in terms of this good planning in terms of who is going to be 
doing what chores in terms of providing security for all the 
different actions that are going on?
    General Dubik. For my part to the mission, train, equip, 
advise, develop, I think the size of the MNSTC-I command, 
composition of the command is about right for the foreseeable 
future.
    The timeline in other aspects is going to be a decision 
made not by MNSTC-I commander based on input from General 
Petraeus, Ambassador Crocker, the joint staff to the secretary 
and for me, I am not--I think I would be way out ahead of my 
bosses to talk about any timeline.
    Dr. Snyder. What happens to the provincial reconstruction 
teams in those areas that you now say the security is handled 
by the Iraqi Security Forces? What is happening today in those 
areas that the security is provided by the Iraqi Security 
Forces?
    General Dubik. In the provinces that have gone PIC, the 
provincial Iraqi control, we have, in some cases, no U.S. 
forces there, other than the provincial reconstruction teams. 
In some cases, we have military transition teams or police 
transition teams that come in and out of the province as units 
do.
    And the security situation is such that some of the PRTs 
have relatively easy movement around under the security 
contract provided by the State Department. Others have more 
difficulty moving around. But they have security provided by 
the contract security done by the Department of State.
    Dr. Snyder. So in those areas that you are labeling--that 
the security is currently handled by Iraqi Security Forces, if 
U.S. civilian teams want to go in there and work, their 
security is not provided by the Iraqi Security Forces. They are 
handled either by U.S. troops as part of an embedded PRT team 
going back into the area and providing security for them or by 
U.S. contractors to the State Department.
    General Dubik. That is correct.
    Dr. Snyder. Okay.
    Secretary Kimmitt. If I could, Congressman, I----
    Dr. Snyder. In terms of--if I might, General Dubik. It 
seems like that is part of this planning process, is it not? I 
don't think that our impression of it, if you look ahead toward 
Iraqi Security Forces providing security, that we are going to 
say, but then anytime a U.S. civilian goes out, that they are 
going to be accompanied by U.S. security forces.
    At some point, we have to have some kind of a goal or a 
timeline. And that is going to change, also?
    General Dubik. At some point, it is likely that condition 
will no longer obtain. I can't see that point right now from 
where I sit.
    Dr. Snyder. I can understand that.
    Secretary Kimmitt. Congressman, if I could. I think it 
needs to be made clear that when we are talking about the 
provincial reconstruction teams or those that are working the 
satellite PRTs, an example is in the south.
    In those provinces that have been handed over to Iraqi 
Security Forces, Muthanna, Maysan, Dhi Qar, the PRT that 
operates out of Tallil Air Base, of course, the close-in 
security for those teams as they move down the road, so on and 
so forth, is provided by our contractors.
    But it is also important to understand that the overarching 
security in that area is also done by Iraqi police and Iraqi 
Security Forces. So there is a net contribution from the Iraqi 
Security Forces on the environment, the overall environment.
    But with regard to the close-in protection for those 
convoys as they go to and from the PRT, that is provided, as 
General Dubik said, by either contract or U.S. military forces.
    But I would not want to neglect the fact that the 
overarching security for that region, for that particular city 
they may be visiting that day is done by local ISF forces.
    Dr. Snyder. And I understand that. But you still have the 
issue that it is going to be more difficult for these PRTs and 
the civilian forms of our government to operate as apparently 
you are going to Iraqi Security Forces to control those areas 
because we are saying that we are going to have to augment that 
with U.S. forces of some kind.
    Thank you.
    The Chairman. Thank you.
    Before I ask Mr. Bartlett, I don't have the exact figure in 
front of me, but my recollection is--and staff agrees--the goal 
for the total Iraqi Security Forces 6 months ago, a year ago, 
was in the 400,000s and today it 555,000.
    Where does that end? Do you anticipate a higher figure for 
their goal in the future? Do you have a read on that, General?
    General Dubik. Yes, sir. There were four data points that 
came together with respect to size of Iraqi Security Forces 
required to provide more and more of their own security, given 
the level of threat assumptions of early 2006.
    The first data point was the Iraqi army and correction of 
the Iraqi joint staff and the Iraqi minister of interior. That 
data point said that somewhere between 601,000 and 640,000 
security force should be adequate for security of their nation.
    The second data point was one that came from U.S. 
commanders, ground commanders, that came to a relatively same 
area. And the third data point was a study for--a study done by 
the Center for Army Analysis. It also came around to the same 
figure.
    These three data points said that if we want a security 
force large enough to handle the security of the nation under 
around early 2006 threat conditions, then the security force 
should be somewhere around 600,000 to 640,000.
    The Iraqis then started growing much more aggressively 
toward that goal, and we expect, as I said, to be around 
580,000 at the end of 2008. There are off-ramps for this. When 
I spoke to the prime minister, minister of defense, and 
minister of interior about their plans to grow a force this 
size, they are eager to off-ramp if not necessary because this 
is a large security force.
    But they are at war and they recognize that they are going 
to be responsible to provide security more and more in their 
provinces. So this is the size security force that they think 
is necessary.
    The Chairman. Mr. Bartlett.
    Mr. Bartlett. Thank you very much. Thank you for your 
testimony.
    Whether you are an American who believes the war is going 
well or is not going well, most Americans would like to know 
that someday our presence there will no longer be needed.
    I have been a proponent of an events-based calendar for 
getting out. I think that our Americans like to have on their 
refrigerator a chart which they can follow that looks to a time 
that we can get out.
    How many security forces do we need? How many police forces 
do we need? What important laws do they need to have passed? 
And so forth.
    Following on our chairman's question about our security 
forces, what number would you have for our people on their 
refrigerator so that as we embark toward that number, they can 
have some confidence that if the other challenges are coming 
along at the same pace, that we can then pull out of Iraq?
    What number do we need? I know it is two different points. 
One is for internal security and one is for protecting the 
nation. But I think with our long reach and our expeditionary 
forces, that we don't necessarily have to be there to assure 
the world that we will be there when we are needed to protect 
them.
    So what is that number that they can have on the 
refrigerator that we are marching toward and when we get there, 
we are coming home?
    General Dubik. Sir, when I talk to my dad about these kinds 
of things, my advice to him is put no number on the 
refrigerator.
    Mr. Bartlett. Does that mean we are going to be there 
forever?
    General Dubik. No, sir, that does not. We have already 
begun to reduce the number of brigades and we are in the 
process of doing that. The successes that we have had this past 
year have been fought for. We have paid dearly for these 
successes not just in money, but in blood.
    And the best way forward, I think, is the way that we have 
outlined, to iteratively review the security situation, to 
review the status of the Iraqi Security Forces, to receive 
input, again, from my perspective, as a military commander, 
from the commanders on the ground, the joint staff, the Central 
Command, and to make a reasoned recommendation on an iterative 
basis as to what is the right force.
    So that the successes that we have fought for we can retain 
and leave in such a way that the job is complete.
    Mr. Bartlett. We have now been in South Korea more than 50 
years, one year at a time, and I don't think our people have 
any stomach for that in Iraq, and I think that they need to 
have a number that they can look to that when we get there, we 
are coming home. It just can't be nebulous.
    In a hearing before our committee a little bit ago, we were 
told that in the judgment of the witness, that Iraq was the 
third most corrupt government in the world, that as much as a 
third of all of the moneys which we appropriate here for 
reconstruction just disappear.
    Is this a cultural problem and can we expect any meaningful 
improvement in this?
    General Dubik. Sir, you probably have read the same 
reports. I have heard the prime minister talk about the need to 
reduce corruption in the government of Iraq.
    The two ministers of defense and interior have selected, on 
purpose, the foreign military sales program so that they can 
purchase equipment, supplies, parts and weapons in such a way 
that it is objective and transparent, to help reduce the 
corruption in their ministries.
    They both have acknowledged that they have work to do in 
this regard and as I quoted some of the work with the minister 
of interior, they are hard at trying to eliminate the 
corruption in their ministries.
    They know that to be, in any way, a legitimate government, 
they must reduce the level of corruption and increase the 
transparency and objectivity of their ministries.
    I wouldn't necessarily, from my standpoint, call it 
cultural. It is rampant and it is a problem that they are 
working on.
    Mr. Bartlett. Mr. Chairman, I spent some time in the 
country of Georgia, and they have corruption there. It is 
because they cannot pay their public officials enough, and in 
order to feed their family, they have got to shake down the 
citizenry.
    Is that the problem in Iraq, or are they being paid enough 
that they don't have to be corrupt?
    General Dubik. Well, the payment for soldiers and policemen 
is adequate. It is very good, so good that we have no 
difficulty with either of the ministries recruiting policemen 
or soldiers, airmen or sailors.
    Mr. Bartlett. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    The gentleman from Washington, Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    General Dubik, it is great to see you here, and I just want 
to compliment you on your leadership out at Fort Lewis during 
your tour there, excellent commanding general, and we 
appreciated having you there and appreciate your service in 
Iraq.
    A couple of questions about where this is going, because 
obviously one of our principal concerns is we are spending an 
enormous amount of money in Iraq and certainly the military has 
been--a huge percentage of our forces are dedicated to that 
effort, which is a big strain on the Treasury and, also, a big 
strain on the military when we do have other places of concern; 
certainly, Afghanistan, but there are others beyond that.
    And when we talk about sort of when we are going to be able 
to begin to draw down, when Iraq is going to take 
responsibility, we get relatively nebulous answers, and I 
understand that, to a certain extent.
    But I am just wondering if you could help us out a little 
bit on some sort of--timeline might be the wrong word, but 
measure of our progress there, to be measured by when we can 
begin to do less.
    I mean, we have measured our progress by a lot of different 
ways, how many troops have been trained, but when do you see us 
beginning to be able to draw down? And we talk about when we 
turned this province over to them, we turned that province over 
to them, but our force levels don't ever come down.
    When do you see that sort of transition from us to them, 
literally, where we are able to pull out?
    General Dubik. Well, sir, the transition from us to them 
has been occurring. When Ambassador Crocker and General 
Petraeus were here the fall of last year, that began reduction 
in forces, and we are in a process of redeploying five 
brigades. That is a----
    Mr. Smith. Not to start off argumentative, but basically, 
the plan as was laid out there is to get us back to the point 
where we have the same number of forces next summer, summer of 
2008, as we had in January of 2007.
    So I am not sure I buy that argument that it is happening.
    Secretary Kimmitt. If I could, Congressman. In fact, I 
think what we have got to recognize is that the additional 
forces that were asked for and sent over reflected an increased 
security situation, enhancing, which had been primarily 
accelerative from the point of the Sumarra bombings of the al-
Askari mosques in February of 2006.
    It is true that, as the President said last year, on 
January 10, that we were going to increase, for some period of 
time, the number of forces on the ground. You are correct that 
we would go from roughly 15 to roughly 20.
    When Ambassador Crocker and General Petraeus came back in 
September, they said, ``We think that the situation on the 
ground is such that we can return those.''
    As you know, Congress has asked and Ambassador Crocker and 
General Petraeus will again come back to testify in the March-
April time period, and I think, at that point, they will be 
able to give a judgment whether the situation on the ground can 
contribute to further reductions in forces.
    Mr. Smith. And we will look forward to that.
    If I can follow up. One of the other, I think, sort of 
measures in terms of the ability of the Iraqi forces and our 
goals, I mean, beyond the ability of the Iraqi forces, but in 
terms of what happens when we do leave an area, what happens 
when the Iraqi forces become responsible for its security, 
which has happened in some areas, primarily in the south.
    And we all would love to have a pro Western, free, open, 
noncorrupt government, democratic and all of that. It is 
probably not going to happen anytime soon in the bulk of Iraq.
    So I don't want us holding out for that. I want us to 
understand sort of what the options are if we begin to pull 
out. And as you look at the south, as you look at some of these 
provinces where Iraqis, be they local or central government, 
have taken over security, what do you see happening and how 
does that sort of give us a picture of what happens when we 
begin to draw down?
    Secretary Kimmitt. Congressman, if I could, in those areas 
in the south, Maysan, Dhi Qar, Muthanna, they were relatively 
homogeneous areas to start with. The amount of violence that 
had emanated from that area was pretty low to start with.
    The real test is going to be what will happen in Basra and 
Basra province, in general, and in the city in particular. In 
many ways, the choices made by the British in terms of handing 
over that province will give us, in some ways, a leading 
indicator of what we might see in other parts of the country.
    Mr. Smith. But you don't see anything yet.
    Secretary Kimmitt. What we see is that in those situations 
where there have been up-ticks in the violence, that the Iraqi 
Security Forces, either through the local police and, if 
necessary, the addition of external forces, have been able to 
quell the violence.
    Whether that in Basra is quelled, whether--if there is 
violence just waiting to happen, Basra is an interesting city 
because of sort of the confluence of a number of different 
organizations. JAM is down there, Jaish al Mahdi. You see some 
of the Badr corps. You see old Basrawis that have sort of run 
the commercial enterprises for years and years.
    While the violence has subsided significantly, General 
Mohan and General Chalili have done quite a good job in 
maintaining order down in that area.
    There are some fundamental questions that will have to be 
made by the Basrawis in the years to come. Is this a city that 
is going to become the next Dubai? Is it going to become the 
next Mogadishu?
    It would seem that, in the south, as we watch that 
confluence of the different forces, primarily the nonmilitary 
competition between the groups, that it is an open question. 
There are still enough coalition forces down there, primarily 
in Basra Air Station, that they believe they have got the 
ability to complement the Iraqi Security Forces.
    But in many ways, that light hand of the British down in 
that area will be an opportunity to see what happens when a 
significant city, one that, quite frankly, sees 90 percent of 
the Gross National Product (GNP) flow through it in the form of 
oil heading down to the ports, whether that is a temporary or a 
permanent condition.
    I think the British would tell you that they are 
comfortable with the security situation down there. They are 
able to react if the situation starts to turn in any specific 
direction. But more importantly, the Iraqi Security Forces feel 
that they have got a good handle on the security situation down 
there.
    Mr. Smith. Thank you very much.
    General Dubik. Representative Smith, if I could use Basra 
for an example. The Iraqis created a 14th division 
headquarters, which they have fielded. They are now filling out 
that division headquarters with three brigades.
    They moved a special forces battalion in there. They took 
one of their mechanized battalions from the ninth division, 
moved it to Basra, and they redeployed parts of their 
helicopter fleet to Basra to augment the security forces there 
under General Mohan, all in anticipation of Basra becoming a 
PIC province.
    So they have matched their forces and created new forces to 
take care of that city.
    Mr. Smith. Thank the gentleman.
    The Chairman. Thank the gentleman.
    It is interesting to point out, in a recent discussion with 
some British leaders, military leaders who are fully familiar 
with the Basra area, they were very optimistic in their 
discussion with us, just about a week ago, as a matter of fact.
    Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here. Thank you for giving 
up some leave time. That really is a sacrifice. I have always 
thought that leave ought to be leave, and so that is quite a 
sacrifice on your part.
    General, you talked about combat enablers and General 
Jones, in his report, and others that we have heard testify, 
that always appears to be a shortfall, if you will, their 
ability to maintain.
    They have virtually no medical capability, as I understand 
it. In fact, my niece is an Army nurse in Baghdad now and there 
there just aren't a lot of Iraqi doctors and nurses at hand.
    But that is kind of a different issue than infantry forces, 
combat forces. And as I understand your mission, your first 
effort, your first priority, if you will, is to make sure that 
they are creating combat battalions and combat brigades, 
whether they are military or police. Is that correct?
    General Dubik. Yes, sir.
    Mr. Kline. Okay. And so as we look to U.S. forces being 
engaged in combat, it is that creating, if you will, of Iraqi 
combat forces that we look at as our means for getting out of a 
combat role, certainly for our conventional forces. That is 
correct, right? But the anticipation is, I would expect, that 
even as our combat role or infantry role, for simplicity's 
sake, goes down, that these enabling roles, particularly 
medical and logistics, maintenance is part of logistics, and 
perhaps fire and air support, will continue for some time after 
our combat, our active patrolling. That is correct, too, right?
    General Dubik. Yes, sir.
    Mr. Kline. Okay. Then the prospects, to continue on the 
question which has continued to come up, when are we going to 
get out of there sort of thing, it is not, in my judgment, it 
is not how fast we get everybody out of there. It is how soon 
we can get out of the business of being the guys who are going 
in and kicking down the doors and patrolling the streets.
    And so that would occur presumably a long time, perhaps 
years, before we actually get whatever--get everybody out of 
there because we are going to be in this combat enabling role 
for some time. Is that an accurate understanding of the 
situation?
    And just so I can understand, what are we doing, we, you, 
in the training mode, what are we doing about those combat--I 
know you talk about buying helicopters in support, but what are 
we doing in the--how are we going about training these people 
and what are we doing, for example, to get them medics and 
corpsmen and doctors and nurses?
    How is that going?
    General Dubik. The combat enablers is a wide, wide scope of 
kinds of functions and they range from direct and indirect fire 
support, mortars, and artillery to close air support, rotary 
wing and fixed wing, to air mobility, rotary wing, to 
counterterrorist Iraqi special operations forces, signal 
capability, maintenance, logistics, supplies capability, the 
intelligence capability.
    All those non--not infantry, not armor, not artillery. 
Everything else is a combat enabler. And, again, that aspect of 
the development of the Iraqi Security Force was intentionally 
secondary and is now becoming more and more primary.
    As their combat battalions grow in numbers and 
capabilities, we must augment that so we can get out of the 
other business, as well.
    There is a program--the Iraqi Air Force is responsible for 
the rotary and fixed wing. There is a flight school, a pilot 
school, and a training program now that is associated with 
training their air mobility, reconnaissance, surveillance and--
--
    Mr. Kline. If I could just interrupt. Are you responsible--
--
    General Dubik. Yes.
    Mr. Kline [continuing]. To coordinate that?
    General Dubik. Yes.
    Mr. Kline. All that medical logistics and everything.
    General Dubik. Yes.
    Mr. Kline. That comes under your headquarters.
    General Dubik. Yes.
    Mr. Kline. And you are finding perhaps other surrogates to 
do it, other countries or Americans or other coalition 
partners.
    General Dubik. There are coalition partners involved in 
every aspect of this. I will say that the medical aspect is 
lower on the work list than are the combat enablers like rotary 
wing, fixed wing aircraft, intelligence, fires, fixed wing 
aircraft, airlift.
    Those kinds of enablers are higher on the priority list 
that we have with the government of Iraq than are some of the 
softer enablers.
    Mr. Kline. Thank you very much. Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman.
    Ms. Davis from California.
    Mrs. Davis of California. Thank you. Thank you, Mr. 
Chairman.
    Thank you to both of you for being here. Thank you for your 
candor.
    General, I know when I was there in July, it was a 
different time. I think we weren't quite as optimistic, I might 
say.
    There are really a number of questions. If I could just go 
to the internal security. And having had an opportunity to hear 
from the defense minister the other day, there is one issue of 
reconstituting of the Iraqi concerned citizens group, and I 
think the estimate is about 20,000 of those 60,000 individuals, 
it is hopeful that they could be brought into the security 
forces.
    What about the others? I mean, how are we thinking about 
that, mitigating that problem, if it exists, and certainly 
whether or not the government really is very excited about 
their involvement?
    General Dubik. Thank you, ma'am, and nice to see you again, 
appreciate it.
    The Concerned Local Citizens (CLC) group is something that 
the Government of Iraq has embraced. They are concerned, as are 
we. There is risk involved in doing this.
    These are former enemies, but, after all, one reconciles 
with enemies, not friends. So the risk has to be mitigated. The 
Government of Iraq has chosen to mitigate that risk by 
layered--with our consultation, with layered vetting. Each of 
these citizens who wants to get into the security forces are 
vetted by coalition forces, local commanders.
    Then their names go to the Baghdad operations center or 
similar operations centers around the country. From there, they 
go to the----
    Mrs. Davis of California. Excuse me, General, but one of 
the questions, I understand, is whether or not they have been 
really tracking. There is a system for tracking military 
personnel today.
    Is that available to them so that they could be vetting 
those citizens, as well?
    General Dubik. They are put into two databases, one for 
Defense, one for Interior. Each of these concerned local 
citizens who want to become--the biometric data are entered 
into the database, checked to see if they were involved in any 
other activities.
    The Iraqi side is a lot more difficult because of their 
paper society, and it is a lot harder for them to track this. 
That is why it is a little slower, but they have set in a 
process to do this and, in fact, have hired quite a few.
    In Abu Ghraib, 1,700 already hired; in Baghdad, 2,000 put 
on temporary contract while the vetting process is complete; 
another 3,000----
    Mrs. Davis of California. You have a reasonable confidence 
level in that process.
    General Dubik. I do.
    Mrs. Davis of California. Can I turn to a few other 
questions? Thank you. Thank you, General.
    The control of their borders, where does this fit into the 
equation in terms of internal security versus external security 
and how do you believe that they are preparing to forcibly do 
that?
    General Dubik. The Department of Border Enforcement falls 
under the Minister of Interior. He has a separate section of 
the interior that handles this, trains these guys.
    The priority had been, first, to make sure that the borders 
on the Syrian side are up and running, and then the borders on 
the Iranian side, and then the Turkish side.
    He has increased the numbers of people there. He has 
increased the amount of technology that is available in terms 
of checking passports and biometric entry, and he has increased 
the number of women in the Department of Border Enforcement so 
that they can properly check both men and women coming across 
the border.
    Mrs. Davis of California. On equipment, in terms of 
patrolling the borders, I know one of the issues of the defense 
minister was for more Abrams tanks.
    Is this an issue in that regard and is that something that 
you feel, even from the viewpoint of maintenance, is realistic 
right now?
    General Dubik. The request for Abrams tanks is unassociated 
with the Department of Border Enforcement. The minister of 
interior does the borders. The minister of defense, for 
internal security reasons, believes, as we have protected 
mobility in the shape of Strykers, Bradleys, M1s and up-armored 
Humvees, and now Mine Resistant Ambush Protected vehicles 
(MRAPs), thanks very much, the Iraqi minister of defense 
believes that their protected mobility should increase, as 
well.
    Mrs. Davis of California. Should we be making special 
arrangements for them to be able to purchase those? Is that 
part of the Iraqi security fund that you are suggesting? I 
know, in your last comments, that you left out perhaps--is that 
part of that?
    General Dubik. Well, the desire of the minister of interior 
for long-term procurement of U.S. equipment is something that 
he has just recently developed.
    He has an aspiration to do this, and I believe that he is 
on the right road to begin the correct negotiations within his 
own government, and then within the U.S. Government, to put us 
on the path that is mutually satisfactory.
    Mrs. Davis of California. Thank you very much.
    The Chairman. Dr. Gingrey, please.
    Dr. Gingrey. Mr. Chairman, thank you.
    General Dubik and Secretary Kimmitt, it is good to see you 
again. We appreciate you being here. And I am very encouraged 
by the testimony you have given.
    We continue to get questions both from committee, as we 
have this morning, and from the general public in regard to a 
date certain, maybe not something necessarily you put on your 
refrigerator, but those questions keep coming up. Those 
questions continue to be proffered to our Presidential 
candidates in both parties.
    And I think it is like asking when is the last episode of 
American Idol. In this situation, General, as you pointed out, 
it is hard to know exactly, but you did encourage us by 
pointing out that General Petraeus and Ambassador Crocker will 
be reporting back to us in the spring, that we have already 
made the decision to redeploy the surge, if you will, and I 
think that is exactly what we should do.
    But I think a date certain would be a mistake. I have 
always felt that way and I think, from what you testified this 
morning, that you feel the same way.
    The people in this country don't worry about the Korean 
Peninsula because we happen to have about 25,000 troops at the 
demilitarized zone (DMZ), but they would darn sure be worried 
if all of a sudden North Korea was invading South Korea.
    So I think, as you point out, it is going to be a while, 
but it will be based on what is on the ground, and I am pleased 
to hear that.
    I would like for you to maybe just comment. What would the 
possible scenario be if we decided to have a date certain, 
whether things are going bad, certainly when things were going 
bad, there was a loud hue and cry to quit and come home and now 
that things are going good, we are hearing the same thing, 
well, we don't need to continue to spend $10 billion a month, 
let's bring some more home.
    But there is a risk to that and I wish, General, if you and 
Secretary Kimmitt would both comment on that. What is the 
downside, worst-case scenario of making that mistake?
    General Dubik. Sir, if I could comment on knowledge in 
warfare. Certainly, the case in February of 2007, no one would 
have predicted what we were facing, the conditions were facing 
in October of 2007.
    Things change in war and we have fought hard to get the 
successes that we have now, we the Iraqi Security Forces, we 
the coalition forces.
    The fight is not over. The enemy is very much active, 
trying to seize back the initiative. They tried a second 
Sumarra bombing in, I believe, June of last year. They continue 
to try to re-incite the violence by vehicle and suicide 
bombings in and around Baghdad. Just recently we saw that.
    The enemy, whether al Qaeda, the remnants of al Qaeda, or 
other violent extremist groups of militias, these people want 
to reverse the successes that we have fought for.
    We have seized the initiative. They want to seize it back. 
So from my professional standpoint, the iterative approach of 
analyzing periodically the actual security conditions, the 
actual state of the Iraqi Security Forces is a much wiser way 
to look at the conduct of warfare than long-term predictions in 
the future based on conditions that exist today.
    Warfare changes back and forth and we have got to be much 
more, I think, iterative in our approach.
    Dr. Gingrey. Secretary Kimmitt.
    Secretary Kimmitt. Congressman, if I could. I think there 
is an issue of American standing and the confidence of our 
Allies in the region. The Allies that we have in the region are 
watching us carefully. They are wanting to see, they are hoping 
that we will finish the job that we started.
    We have been in the Gulf region for 60-plus years. We 
expect to be in the region for years and years to come. Our 
Allies and our partners in the region need us there, want us 
there because they have other threats and other challenges and 
if they don't believe that they can count on the United States 
to finish the job that they started in Iraq, they are going to 
have serious questions about whether they should be listening 
to us when we say we are going to stand by you against emergent 
threats and existing threats in the region.
    It goes to our credibility in the region. It goes to our 
national interests in the region, and I believe it goes to our 
credibility as a nation.
    The Chairman. Thank you.
    The gentleman from Connecticut, Mr. Courtney, please.
    Mr. Courtney. Thank you, Mr. Chairman.
    I want to thank the witnesses and spouses who are here 
today. The topic that you are talking about, in addition to the 
Armed Services Committee certainly wanting to get an updated 
status as far as your progress, also seems to be relevant to 
issues that seem to be emerging on the front pages of the paper 
as far as the legal status of American troops in Iraq.
    I guess I should probably direct this question to Secretary 
Kimmitt.
    It appears that the Iraqi Government does not want to 
continue authorizing legal status of our troops under the U.N. 
resolution, but wants to have a sort of separate negotiated 
agreement between the U.S. and Iraq.
    Is that your understanding, Secretary Kimmitt, about their 
position?
    Secretary Kimmitt. I can articulate that perhaps 
differently, but please go ahead.
    Mr. Courtney. Well, I guess, first of all, I actually would 
like to hear what your thoughts are about whether or not their 
preference should really be driving that outcome because 
certainly even those who have questions about our presence in 
Iraq, or those who support our presence in Iraq, I think would 
probably feel a lot more comfortable having a U.N. legal basis 
rather than something that is just bilateral between our 
country and Iraq.
    And, second, if it turns out we are going to end up doing 
this separate, the issue of when Iraq is going to be ready to 
take over its own security is a pretty big deal because the 
term of the agreement certainly could be driven or governed, to 
a large degree, by what they are saying.
    I mean, if the secretary from the Iraq Ministry is saying 
2012 before they are going to have capability of securing their 
own country internally, that is a pretty disturbing, I think, 
prospect in terms of what we negotiate, if there is going to be 
negotiation for an agreement.
    So I think it is a two-part question. Maybe you could 
comment.
    Secretary Kimmitt. Sir, if I could, it is clear that the 
Iraqis are seeking, in 2009, not to be having this relationship 
based on Chapter Seven United Nations Security Council 
resolution (UNSCR), which gives to them pretty much a view that 
they are being occupied by an external force.
    We are now at the position where we are seeking to 
normalize that relationship of our presence there and their 
sovereign rights. That is not to presuppose that there will be 
a United Nations Security Council resolution next year, but it 
is clear that the type of Security Council resolution that Iraq 
does not prefer would be a Chapter Seven, by any means, by any 
use of force necessary.
    They are a sovereign country. They believe--and this goes 
back to taking on more and more of the responsibility for 
themselves. At the same time, they understand that there will 
be a need for coalition forces, in general, and American 
forces, in particular, in the future and that is why this year 
we will be sitting down as an adjunct, as a follow-on from the 
Declaration of Principles that was signed between our two 
countries in November, between Prime Minister Maliki and 
President Bush.
    The declaration of principles was signed. Another renewal 
of the UNSCR for 2008 was agreed upon by the United Nations. 
And now we are going to be sitting down in the near future with 
the Government of Iraq on one side of the table and the United 
States on the other side of the table to work toward a more 
Status of Forces Agreement (SOFA)-like relationship between our 
countries as we enjoy with many other countries around the 
world.
    This one will have to have some additional aspects, such as 
our capability to conduct operations, and many of these other 
issues that will have to be negotiated.
    But not for a minute should this body be concerned that 
somehow we will forfeit rights and immunities of the American 
soldier on the ground. There are some absolute redlines that 
will go into this in negotiations and those are not redlines 
that we are willing--and the protection and the rights of the 
American soldiers, as we have in many other countries, are not 
one that we are prepared to forfeit to remain inside, nor, for 
that matter, do we believe the Iraqis are going to suggest that 
there ought to be different rights and authorities for our 
soldiers in 2009 as they had in 2007.
    Mr. Courtney. I have got a lot of confidence you are going 
to protect their legal position.
    I guess what I am more concerned about really is just that 
this new SOFA agreement is not going to be an open-ended 
enabler for them not to move and to take more responsibility 
for their own future.
    And I think I am about to run out of time here, but my, 
certainly, advice to the Administration would be that if this 
process goes forward, that it be as transparent as possible and 
that Congress is part of the loop in terms of that discussion.
    We do not want long-term commitments being made that lock 
in this country for a time period and to an ally that maybe a 
lot of people in this country don't feel are really holding up 
their end.
    With that, I yield back. Thank you, Mr. Chairman.
    The Chairman. Thank the gentleman.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman. And thank you, Mr. 
Chairman, for this very informative hearing.
    General Dubik, we appreciate your service. We appreciate 
your wife, Sharon's service. It is very inspiring to people of 
the United States.
    Mr. Secretary, thank you for your input today and service, 
also.
    I really have the perspective of being a Member of 
Congress, a 31-year veteran of the National Guard. On my eight 
visits to Iraq, I have never been more proud of the American 
fighting personnel, men and women who are, I think, making a 
phenomenal difference.
    I also have the perspective of being a parent. My oldest 
son served for a year there. I currently have another son 
serving in Iraq. And we are very proud.
    And I hear from them a point that both of you have made 
this morning that just doesn't come across, and that is the 
bravery, the courage, the involvement of the Iraqi Army, the 
Iraqi police. And so I really have been impressed by your 
presentation today.
    But we do have concerns, all of us. Beginning in October 
2006, each of the 10 national police brigades were to be taken 
offline for 4 weeks of re-vetting and retraining due to a 
pattern of unprofessional, in some cases, maybe even criminal 
behavior.
    Has this training been completed? How have you measured the 
effectiveness of this re-bluing effort?
    General Dubik. Sir, that specific part of the training is 
completed. But the professionalization of the national police 
is not going to be done in one four-week period, and that is 
why the minister of interior has had an ongoing national police 
reform initiative.
    That training that you referred to was just one part of it. 
The initial part that continues is not one phase and then goes 
to two. Phase one, continual assessment of leadership, goes on 
and I talked about the replacement of the national police 
commanding generals, brigade commanders, battalion commanders, 
the 1,300 national police that he let go from service.
    The second phase, the training that you talked about, third 
phase, leadership professionalization, a six-week program that 
the Italian Carabinieri will have been conducting battalion by 
battalion for the national police to increase the proficiency 
of their force, the creation of the training center in 
Numaniyah, the creating of the national police leadership 
center.
    So the continual reform of the national police is something 
that the minister of interior and commanding general of the 
national police knows must go on over time.
    In terms of measurement, I will give you one quick 
indicator. I believe in the beginning of 2007 to now, we have 
had nine more national police battalions move from the 
readiness status three to readiness status two, and this is a 
pretty significant improvement.
    I did talk to General Odierno about this. He is observing 
much more professional behavior by national police than before. 
The transition teams are commenting--the negative comments are 
much fewer now.
    When the national police moved to Diwaniyah recently for 
temporary duty to assist the coalition force brigade in 
Diwaniyah, the division commander told me, when I went to visit 
him, that he was--he didn't know who these guys were, but they 
were very good.
    So the overall impression, as well as the empirics of their 
readiness assessment I think are going in the right direction. 
But they will not keep going in that direction without 
sustained reform, dedication of the minister of interior and 
the commander of the national police, which currently they are 
very committed to.
    Mr. Wilson. It is really encouraging to me that we haven't 
even heard any citing of sectarian divisions in your 
presentation.
    Has progress been made in regard to the various sects of 
the country, their ability to work together?
    General Dubik. In the national police right now, there are 
2,000 new recruits, just finished their initial training, 
beginning the national police specialized training, 500 of 
these are Sunni.
    The national police commanding general, General Hussein, is 
actively recruiting Sunnis into the national police because he 
knows to be a national force, he must be at least 
representative of the population.
    The split in the leadership, division commanders, one 
Sunni, one Shia, about 30 percent Sunni, 70 percent Shia for 
the brigade commanders, 20 percent Sunni, 80 percent Shia at 
the battalion commander, rough, rough percentages, but these 
are reflective of the society.
    He knows he has to do that, and he is actively recruiting 
to do that.
    Mr. Wilson. Thank you very much.
    The Chairman. Thank you, Mr. Wilson.
    Before I call on the gentlelady from New Hampshire, 
Secretary Kimmitt, let me ask you a question that has been 
gnawing.
    Our country is currently planning to transfer about 8,500 
M-114 up-armored Humvees to the Iraqi Security Forces. Because 
these vehicles are not excess, there is still a requirement for 
them in our country. The law requires that the Department of 
Defense charge fair market value for them, which I am told is 
$11,300 per vehicle, which seems to me to be a large 
depreciation. But that comes to about $96 million.
    The current plan, as I understand, is that rather than 
having the Iraqis pay for these vehicles, the United States 
will pay itself out of the Iraqi Security Forces fund, which is 
an appropriated fund.
    Now, does it make sense for us to pay for our own vehicles 
to transfer them to the Iraqi forces when it seems that they 
have a fair amount of money, revenues coming in from the oil 
that they have? And how do we explain this to the good people 
of America?
    Mr. Secretary.
    Secretary Kimmitt. Mr. Chairman, first, let me offer the 
floor to General Dubik because he is intimately involved in 
this, and perhaps I can finish up on that.
    General Dubik. Yes, sir. The transfer this year will be 
4,244 vehicles, paid for by the Iraqi Security Force fund, as 
you outline, at fair market price.
    The Iraqis have, through the FMS system, paid for all of 
the spare parts, for continuing maintenance. The initial 
contract is $65 million and they now have a letter of request 
for additional spare parts for the long-term sustainment of 
these vehicles.
    The decision to use the Iraqi Security Force fund was one 
of expediency. As the MRAPs, which I must say, again, thanks 
for your support in the MRAP program, as MRAPs came in, we 
could transfer these M-114 Humvees, up-armored Humvees to the 
Iraqi Security Force without any diminution of protected 
mobility inside theater.
    The use of Iraqi Security Force funds was one of choice for 
the most expeditious, fastest way to increase the protected 
mobility of the Iraqi Security Forces, which was to all of our 
benefit. But they are paying. They are paying for all of the 
maintenance.
    The Chairman. It doesn't seem that difficult for them to 
write a check for $96 million. General.
    General Dubik. Yes, sir.
    The Chairman. Who made this decision?
    General Dubik. Yes, sir. We made this decision----
    The Chairman. No. Who made this decision?
    General Dubik. We requested the--this is a pseudo-FMS case 
that I had requested. It went through the Multi-National Force 
Iraq, went to Central Command (CENTCOM), went through the 
Pentagon for approval, and then back to me for a decision.
    Secretary Kimmitt. Mr. Chairman, if I could. This is really 
an example of what the ISF does. In many ways, we give the 
Iraqi--use the appropriated funds given by Congress to the 
Iraqis, of which they then pay us back by purchasing goods and 
services, in many cases, from the United States of America.
    Whether they use the money to buy American M-4s, use the 
money to buy Humvees that have been used and are now considered 
excess to the inventory----
    The Chairman. But these are not excess. These have not been 
excess.
    Secretary Kimmitt. These were determined or--I should 
rephrase my term as excess to the needs on the ground. The Army 
was very heavily involved in this and felt that given their 
future procurement decisions that they were making, that these 
were not needed as part of their long-term acquisition 
strategy, and that is why the Army felt that this was an 
appropriate use for these Humvees in order to give greater 
protection to the Iraqi Security Forces who are fighting side 
by side with us.
    The Chairman. Ms. Shea-Porter.
    Ms. Shea-Porter. Thank you, Mr. Chairman. And thank you for 
being here. Although I was the wife of a lowly lieutenant, I 
know how valuable leave time was. So thank you for this.
    I have to ask you, though, General, we are entering the 
sixth year of this conflict and we ran a war, a world war, in 
one, in four. And so all of the good news that we are hearing 
today really does not ring true in the sense that the problems 
seem so deep and so entrenched inside the Iraqi Government 
itself and the people that I just wonder what is really 
happening there.
    So I wanted to ask you a couple of questions about that.
    I know that we are talking about the sheikhs and how they 
seem to like us how and they realize al Qaeda has been a 
problem, which it certainly has been. But we are also paying 
the sheikhs. Can't they come to that conclusion themselves?
    Have we won their hearts or is this really a fact that we 
are giving them money, and so we are getting their cooperation?
    General Dubik. Well, ma'am, all I can do in terms of report 
is report what I see and if I have given you a completely rosy 
picture, I apologize, because my essential line is----
    Ms. Shea-Porter. I think you have been very clear.
    General Dubik. It is a mixed picture.
    Ms. Shea-Porter. Yes.
    General Dubik. There are some very, very positive aspects 
and some aspects that still need a lot of work.
    In terms of the concerned local citizens----
    Ms. Shea-Porter. They are paid, too, aren't they?
    General Dubik. They are paid.
    Ms. Shea-Porter. Right, by us.
    General Dubik. They are paid by us.
    Ms. Shea-Porter. And let me just say, General, I think you 
have given a very honest assessment. What I am concerned about 
is the part of do we actually have the Iraqi people with us.
    General Dubik. Again, the concerned local citizens are a 
reflection of the turn that a large number of the Iraqi people 
have made against al Qaeda. This is not just a small part of 
the population. To have walked the streets of Fallujah in June 
of 2007 and then to walk the streets of Fallujah in December of 
2007, it is an entirely different place.
    The same----
    Ms. Shea-Porter. Why do we have to pay the sheikhs and pay 
the so-called volunteers, the neighborhood volunteers, if they 
are really with us, for their country?
    General Dubik. It is their country. Many of the lower level 
insurgents are lower level insurgents because they have no 
other source of income. This is a way to give hope to those 
people and to put them to use in a positive way rather than 
them----
    Ms. Shea-Porter. Well, actually, isn't it true that the 
Iraqi Shias did not want the Sunnis--they wouldn't hire them. 
So what I am getting at here is we have been talking about 
national reconciliation and then the administration shifted 
gears and I hear the word local reconciliation a lot now.
    And so we see that we have had to pay them because the 
Shias would not allow them in, but I am also concerned about 
the ministry of the interior, when we don't know how many 
people show up every day. We are not certain about the Iraqi 
Police Service (IPS), how many people actually show up for 
that.
    I know that last year, last summer, the Iraqi parliament, 
more than half wanted us to go home, signed a petition to 
leave. And then I think in the final insult, we had the weapons 
deal where they bought small weapons from the Chinese instead 
of from the United States because they said we just took too 
long in our FMS process.
    And I just have to wonder, does this show a lack of 
commitment to their own nation rebuilding and why did we shift 
from talking about national to local reconciliation? And why do 
we have to pay each layer there to do what seems to be the 
natural thing to do to beat back al Qaeda and beat back forces?
    General Dubik. I think it is the case that the government 
of Iraq was hesitant to embrace former insurgents at first. 
They were nervous and have good reason to be nervous about 
including former insurgents into their security forces.
    But over time, they have seen and acknowledged publicly, 
the prime minister, the deputy prime minister, the ministers of 
interior and defense, the minister of finance, national 
security advisor, all on public record of now embracing the 
concerned local citizens initiatives, realizing that they must 
take over the contracts and beginning the movement to figure 
out how they can manage the contracts now and pay the concerned 
local citizens, and figure out not just a program for those 20-
some percent that may end up in the security forces, but the 80 
percent that need jobs.
    Ms. Shea-Porter. Let me ask you. Do you think we have the 
support of the Iraqi parliament for all of your efforts? And I 
thank you for your efforts, and I will say that I, too, have 
been to Iraq, and you simply cannot say enough about our troops 
there.
    But do you think we have the support of the Iraqi 
parliament and the highest levels of government for our 
efforts?
    Secretary Kimmitt. Ma'am, if I could talk about the Iraqi 
parliament, the council of representatives, it is clear that, 
in all cases, we don't have a majority opinion of support for 
the United States. We saw the Sadr-ists, for example, last 
fall, as you recognized, in fact, that don't want to see a 
continued occupation by the United States forces.
    But in general, they recognize the importance of 
maintaining stability in their country, improving the security 
in their country, and I think, in many ways, they see us in 
most cases as bad medicine. There is this tension between their 
sovereign rights as a nation and their capabilities of 
exercising those sovereign rights.
    So it is our view that as the Iraqi parliament, the council 
of representatives continues to debate some of the core issues 
on reconciliation, for example, in many ways, they are still 
coming to agreements among themselves. And so for them to be 
completely in agreement among the presence of external forces 
in their country, I think it would be natural for them to 
continue to have some concerns about our continued presence.
    But that shouldn't be considered a rejection of our 
presence or a rejection of our contributions inside the 
country.
    Ms. Shea-Porter. I would just say signing a petition asking 
us to leave and having a majority of parliament would say 
something different to me.
    But I thank you both for being here and for your service.
    Thank you.
    The Chairman. Thank the gentlelady.
    The gentleman from Georgia, Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman.
    I want to thank both of you gentlemen and your spouses and 
families for your service to the Nation, your fine service to 
the Nation.
    And, Secretary Kimmitt, you mentioned a little earlier that 
there were countries in the Middle East that are looking at us 
to see whether or not we will finish the job that we started.
    Would you remind the American people of what that job was 
and is and what does victory mean in Iraq?
    Secretary Kimmitt. Sir, as we continue to say in our 
quarterly report to Congress, we are seeking an Iraq that is 
free, unified, and is an ally alongside of us in the war on 
terror and a pluralistic democratic nation.
    And it is our sensing that the nation is moving in that 
direction. It has rejected and it has overcome the Saddam era 
of brutalities, the divisions that were inflicted by Saddam and 
his Baath party, the genocide, attempted genocide of the Kurds 
in the north and the Shia in the south.
    This is a country that is moving along on the democratic 
process, and it is one that is, as General Dubik has so 
brilliantly outlined today, getting closer and closer to taking 
over responsibility for its own security.
    Mr. Johnson. Well, many people in America feel that the 
invasion of Iraq destabilized the Middle East area and created 
a cesspool of terrorist development, which has only now started 
to take on a semblance of being under control, perhaps due to 
the surge that was undertaken last year.
    And most people feel that we are trapped in a quagmire in 
Iraq, a quagmire of violence, internal strife, civil discord, 
and our troops are trapped in the middle of it, and the Iraqi 
leadership does not want that quagmire to come to an end 
because we are providing them with their security, and we are 
also the means whereby they are able to generate income.
    In other words, the American public are paying for their 
security, and they are paying for their stability. And without 
us being there, then the entire situation would degenerate back 
into this civil conflict, and if we do leave, then the parties 
would be able to work their differences out amongst themselves 
without us being there.
    They are doing it now with us there. If we leave, they 
fight it out amongst themselves, come to a conclusion as to who 
is going to be the winner, and then the Americans can deal with 
that reality as opposed to trying to prop up a government 
artificially that we like, that was not necessarily arrived at 
by the will of the Iraqi people.
    And so I can appreciate what you are saying in terms of the 
Iraqi Security Forces advancing, making advancements in terms 
of taking care of themselves, but you cannot tell us when or 
you refuse to tell us when that can be accomplished.
    And what I want to ask is what role does all of the 
corruption that you have spoken of today, what role does that 
have in terms of our ability to extract ourselves from Iraq? 
The corruption appears to be pervasive, ongoing, with no end in 
sight.
    What impact does that have on our ability to extract 
ourselves from Iraq?
    Secretary Kimmitt. Well, Congressman, as mentioned earlier 
by General Dubik, it is important to note the progress that the 
Iraqis themselves are making toward the corruption endemic 
within their own country.
    The commission of public integrity was formed very quickly 
after American forces came in, and each of the different 
ministries have their own internal inspector general functions, 
of which General Dubik laid out, within the ministry of 
interior, how many ongoing investigations there are and the 
progress that has been made.
    We feel comfortable that the Iraqis understand the 
significance of the corruption within their country and the 
leadership is taking action to address that.
    The Chairman. Thank the gentleman.
    We have left the gentleman from Pennsylvania, Mr. Sestak. 
We have the gentleman from Georgia, Mr. Marshall. And I 
understand the gentleman from Maryland, Mr. Bartlett, wishes to 
ask a follow-on question.
    So, Mr. Sestak, please.
    Mr. Sestak. Thanks, Mr. Chairman.
    Congressman Gingrey from Georgia, on the other side, had 
brought up--who I have great respect for--the issue of date 
certain, which wasn't what this hearing was about. But if I 
could just give maybe a perspective, after listening to you, 
sir, who is responsible for the Middle East affairs and you, 
responsible for Iraq's army security.
    The Congress is responsible for the common defense. So when 
I look at the common defense and think about a date certain, 
and Congressman Gingrey brought up the issue of 25,000 troops, 
27,000, sitting on the demilitarized zone (DMZ), there is not 
one Army unit here at home, our active Guard or Reserve, since 
pre-surge days, that could respond to defend those men and 
women.
    You know our Op Plan 5027, sir. You know what is supposed 
to defend them in terms of divisions, now brigades. The 
response we get is the Navy and the Air Force will protect 
them, in open testimony.
    Afghanistan, the most violent area we have had, with record 
opium production this year and the Taliban back in the 
ungoverned regions, from which they controlled and al Qaeda hid 
and struck us. In Pakistan today, the intelligence agency 
testified almost a year ago, safe haven for al Qaeda, who 
started it all, and the most dangerous place of the world, 
Pakistan.
    That is the short term. The long term, as I look at the 
common defense, and I think about a date certain, is your Army, 
sir, now recruits, for the first time in several decades, 42 
percent of its recruits in the below mental category, that your 
Army, sir, wants to transform to the Future Combat System (FCS) 
and other transformational systems that will take a cohort 20 
years from now to be the best and the brightest.
    And we don't even train any more for several years in any 
other warfare except for Iraq. And China, the center of gravity 
for our Nation the next year.
    So I sit back, and I think about General McCaffrey 
yesterday testifying that the Sunnis woke up, and they realized 
we could be leaving. So they decided to play. You know the 
saying in Iraq, Insha'allah, God willing tomorrow.
    So before we say that it is--and I understand your 
viewpoints, but many people have said a date certain, given 15 
to 24 months, which it probably takes us to get out through 
those 2 cleaning stations that you have in Kuwait and down road 
Tampa, may be what is needed to help America's overall 
security.
    But I appreciate your viewpoint. You have one corner of the 
world, Iraq security, but ultimately it is about American 
security, 25,000 troops, no reinforcements. You never would 
have lived with that five, six, seven years ago.
    In any case, my question really had to do with the Iraqi 
Security Forces. Someone testified about eight months ago that 
it is not going to be an ultimate issue of their training. 
Rather, it is going to be a question of their willingness to 
fight and their loyalty.
    You addressed their willingness to fight here. Tell me 
about their loyalty. The intelligence community says it is not 
a science, it is an art, in testimony, determine their loyalty.
    Would you embed our troops there, as some have asked? Can 
you tell us which ones? Because ultimately this is really 
about--I am sure they want to fight each other now, five years 
from now, when we leave. What about their loyalty, sir?
    General Dubik. Thanks, first, Mr. Congressman, for your 
acknowledgment of their willingness to fight because they are 
very willing to fight.
    Mr. Sestak. Sir, about their loyalty.
    General Dubik. Their loyalty is an issue that both the 
ministers of defense and interior are concerned about. Both 
know that to have legitimate security forces for their nation, 
they must be loyal to their nation and not to their local area 
or tribe or sect.
    Mr. Sestak. Would you embed any of our forces in their 
units and, if so, what percentage? That is a great test of 
loyalty.
    General Dubik. We are already embedded in----
    Mr. Sestak. Correct. What percentage?
    General Dubik. I don't----
    Mr. Sestak. And leaving just embedded trainers behind, not 
combat forces nearby, U.S.
    General Dubik. I don't know what the percentage is in terms 
of embedded forces. I don't have the number. They work for 
General Odierno.
    Mr. Sestak. Could I get that?
    General Dubik. I would be happy to provide that for you.
    Mr. Sestak. It would be great.
    General Dubik. It is a matter of open record, but it is not 
my area of responsibility. So I don't have the number----
    Mr. Sestak. Because when I asked that question of the 
intelligence community, as I said, they said it is an art, not 
a science. And some are talking eventually of embedded forces 
without nearby combat forces because ultimately I think this is 
about that.
    I am out of time. I am sorry. Thank you.
    General Dubik. If I could, just for the record, the number 
is over 5,000 American troops, roughly about 5,500 American 
troops and over 600 units embedded into the Iraqi military.
    Mr. Sestak. How many units are there in the Iraqi military? 
The 600 units, is that brigade, is that company, is that 
squadron?
    General Dubik. We will provide the answer to you for the 
record.
    The Chairman. I thank the gentleman.
    Mr. Marshall.
    Mr. Marshall. Thank you, Mr. Chairman.
    Thank you both for your service.
    I want to pick up a little bit on what Mr. Sestak was 
talking about. If you step back and take a historical view of 
similar engagements by the United States, you have to conclude 
that the history suggests that it will be quite a challenge for 
us ultimately to have a stable Iraq.
    We are very good at building security forces. We are not so 
good at building the civilian counterpart or creating a 
representative government that security forces remain 
subservient to as security forces do here in the United States.
    In fact, our history is to the contrary. A lot of the 
militaries that we create lined up in the interest of 
establishing stability for their countries, or at least 
ostensibly so, taking over.
    You combine that with the fact that, historically, nations 
whose primary wealth is based on oil, that is Iraq, have a very 
difficult time establishing democracies, any kind of 
representative government.
    What typically happens is one tribe, one family, one group, 
one sect wins control of the valuable resource, then uses that 
control to cement its control. And so you see the Saud family 
in Saudi Arabia, et cetera, hiring individuals, like many in 
this room, to defend their control over the resource.
    So we have got a twofold challenge here. And I am just 
wondering to what extent there are discussions at your level in 
the military, in Iraq, in the Pentagon, in the State Department 
about these twin challenges that we face and how we are going 
to get past that where Iraq is concerned.
    I have thought, for example, that it would probably would 
be wise for us to--well, wise for Iraq, frankly, to assure that 
we are embedded, supporting, et cetera, their military for the 
foreseeable future, providing transportation, communications, 
sort of conventional support that protects Iraq from any 
serious conventional threat from other countries, that sort of 
thing, so that the military is kind of dependent upon us.
    And since we are not interested in having the military take 
over, maybe the military won't, as it historically has done 
when we have helped build militaries.
    Is there any kind of conversation going on about that right 
now?
    General Dubik. I will just talk internal conversation that 
I have had with the chief of the joint forces, national 
security advisor, Dr. Rubaie, General Babakir, the chief of 
joint forces, Minister Bulani, the minister of interior, Mr. 
Abd Qadir, the minister of defense, about this subject.
    The command and control of military forces in Iraq and 
Saddam had been under the military. Of course, Saddam 
personally, but through the military. The minister of defense 
is in the chain of command. The chief of joint forces is not.
    And it is a matter of a continued discussion and education, 
quite frankly, about the relationship of the military as 
subordinate to civilian control. They are aware that that is 
the path that they are on, they should be on, and they need to 
figure out how to do that.
    The minister of interior's role in this is very important, 
because the interior security of Iraq under Saddam was a 
military function. The police forces, as we know them, were not 
really responsible for interior security. And he knows that he 
has a responsibility to change that around in the current 
governmental arrangement. That is why he has chosen reform as 
aggressively as he has in the national police and why he is on 
such a training program for Iraqi police.
    He should be responsible for internal security----
    Mr. Marshall. General, could I interrupt here?
    Mr. Secretary, discussions in the Pentagon about these 
kinds of issues?
    Secretary Kimmitt. Well, on the issue of the government, 
along with the embedding in the military forces, there is also 
our ministry capacity teams, the programs that are run through 
the State Department, trying to promote and insist that each of 
the different ministries, not simply the ministry of defense, 
ministry of interior, but ministry of finance----
    Mr. Marshall. If I could interrupt. Is it accepted that 
this is a challenge, that this could well be an issue, because 
historically it has been, these two issues, these twin issues?
    Secretary Kimmitt. It is certainly an issue, and it is an 
issue that the Iraqis themselves are confronting every day.
    What type of social contract do they want to have with the 
central government as sects or as citizens of Iraq?
    Mr. Marshall. Thank you, gentlemen.
    Thank you, Mr. Chairman.
    The Chairman. Thank the gentleman from Georgia.
    Let me ask one question, and I don't know to whom to 
address this. But as I understand it, during the year 2006, 
there was a problem with pay for the locally hired police 
forces, based on being a Sunni or another Shiite group and 
some, consequently, didn't get paid.
    Did that change in 2007, and what is the present status of 
that police force, which, of course, comes from the central 
government?
    General Dubik. Yes, sir. I would say, by and large, the pay 
problem is solved in that the central government is providing 
pay through the provinces to policemen.
    There are instances where that is not the case, and the 
ministry of interior has done two things to--three things, 
actually, to mitigate that in the future.
    First, he is automating his pay system, like the military 
has. Second, he is much more aggressively having meetings with 
the provincial directors of police at the national level. And, 
third, he has pay contact teams that travel around the country 
to solve this problem.
    But it still exists in instances. As a general rule, it is 
much better.
    The Chairman. I can see where that would be very 
discouraging for a police officer, very discouraging, to not 
get paid or not getting paid on time. I thank you for that.
    Mr. Bartlett.
    Mr. Bartlett. Thank you very much for indulging me another 
brief question.
    In earlier testimony today, when we were discussing the 
projected dates for readiness of the Iraqi Security Forces for 
internal security and external security, I think I remember 
that the projected date for the external security was somewhere 
around, what, 2018, 2020.
    Does that mean that we are going to have to have our forces 
in Iraq for at least another decade?
    Secretary Kimmitt. Sir, I don't think that one should draw 
that conclusion at all. If you take, for example, one of those 
elements that a nation would want to have for external defense, 
an air force, there are no fighter aircrafts inside of Iraq at 
present.
    And if you think how long it takes not simply to buy a 
fighter aircraft, but to train a pilot, train an air force, get 
to a certain level of competency, Minister Qadir has made some 
very tough decisions, where his first priorities are for the 
ground forces and later on for the elements for external 
defense, such as an air force.
    Does that mean that we need to keep American aircraft 
stationed inside of Iraq for the external defense until 2020? 
Of course not. That was mentioned earlier, the significant 
capability of the United States military to project power 
perhaps from other bases in the Middle East, to serve as a 
deterrent to any adversary against Iraq, but that does not 
necessarily mean that those forces would need to be stationed--
in fact, it probably means that they wouldn't be stationed in 
Iraq.
    But nonetheless, with the basing structure that we do have 
currently in the Middle East, I think that the Iraqi Security 
Forces can remain confident that they don't need--that they 
need to take their first priorities on the ground forces and 
perhaps later on those other elements for independent external 
defense.
    Mr. Bartlett. I gather that your reply indicates that we 
would probably need to be there until they were ready for 
internal security challenges.
    Secretary Kimmitt. We are there currently, Congressman, to 
help them face the internal security challenges. They are----
    Mr. Bartlett. What was the date at which you projected they 
would be ready for that? Was it 2012 or 2013?
    Secretary Kimmitt. Again, I think the minister mentioned a 
number of times that he believes first quarter of 2009 to 2012 
would be a time when the Iraqi Security Forces could probably 
take responsibility for the tip of the spear for that issue, 
logistics enablers, so on and so forth, other security 
cooperation may go beyond that.
    But I will defer to General Dubik on that judgment.
    Mr. Bartlett. So our citizens could reasonably anticipate 
that sometime in that timeframe, that we could be leaving.
    Secretary Kimmitt. Congressman, what I believe is that we 
are going to maintain the security relationship, the security 
cooperation relationship with Iraq for some period of time, the 
way we have a security cooperation relationship with Saudi 
Arabia and probably a hundred other nations around the world.
    If you take a look at countries such as Jordan, currently 
at peace, but we still have a significant training element that 
works with the Jordanian forces not only to improve their 
forces, but help them maintain their readiness.
    It would be envisioned that even well beyond the time 
period when active combat operations were going on inside of 
Iraq, that we would maintain an element inside of Iraq, 
certainly not combat forces, but security cooperation elements 
the way we have in many countries around the world, to continue 
to work with them as allies, to continue to work with them as 
partners, to continue to have bilateral exchanges, 
International Military Education and Training (IMET) between 
our two countries.
    Mr. Bartlett. So much earlier than this, you would expect 
that we might----
    The Chairman. Wait, wait. Let me interrupt. Was that a yes 
or a no to his question?
    Secretary Kimmitt. Chairman, without sounding flippant, I 
perhaps would need to have the question asked again so I could 
currently specifically understand the question.
    The Chairman. Let the reporter repeat the question, please. 
Does the reporter have the question to repeat?
    If not, Mr. Bartlett, would you ask that question again?
    Mr. Bartlett. I believe the question asked if we--if our 
citizens should conclude that we will need to have forces in 
Iraq until their security forces were ready for internal 
security challenges and that date, you indicated, was somewhere 
between late in 2009 and 2012.
    Secretary Kimmitt. Sir, what I was reflecting was what 
Minister Abd Qadir himself believes is that range of time 
where--in which, somewhere in that range, he believes, it is 
his judgment, his independent judgment that the Iraqi Security 
Forces could take on the internal security force 
responsibility.
    Mr. Bartlett. I gather that you kind of concurred with that 
in the way in which you gave that testimony. Is that correct?
    Secretary Kimmitt. Congressman, what I would say is that we 
do, as Lieutenant General Dubik said, look at this as an 
iterative process rather than project a date certain in the 
future.
    We iteratively reflect on the conditions on the ground and 
adjust our troop levels and our troop contributions as 
conditions on the ground merit.
    Mr. Bartlett. Mr. Chairman, thank you very much. The reason 
I am asking these questions is I think that the American people 
need to have some confidence that at some point in time, that 
our troops are coming home, and I was just trying to probe to 
see when, in your judgment, that point in time would be.
    Thank you very much.
    The Chairman. Thank you.
    And before I call on Mr. Cummings, General, you may or may 
not be able to touch on this question. But yesterday, General 
McCaffrey, who had just returned recently from Iraq, testified 
before our subcommittee and I was privileged to be present for 
part of that hearing.
    And in that hearing, he testified to the effect that the 
United States Army has 10 percent of its young soldiers who 
should not be in uniform because of their past history.
    In your opinion, if that is true, does that affect the 
performance of the United States Army in its various duties in 
Iraq?
    General Dubik. Sir, I have seen no diminution in capability 
of soldiers or leaders in Iraq in my command or as I have 
traveled around talking to the leaders under General Odierno's 
command, nor have I seen any diminution of quality in the 
forces at Fort Lewis during the two years plus I commanded 
there.
    The Chairman. That is encouraging. Thank you.
    General Dubik. Yes, sir. I was, as you were speaking, 
having some flashbacks of several people that I know that fall 
in that category.
    Secretary Kimmitt. Some sitting at this table.
    General Dubik. That is one of the great things about the 
United States Army. You can come in and start your life over. 
And so it is the case that we want to have brought into the 
Army a wide variety of people, and we ought to use as many 
indicators as possible for success.
    Now, that being the case, there is a floor below which you 
fall and you start having difficulty, as we did in, say, the 
mid 1970's, late 1970's, where you had a quality of force that 
couldn't be trained.
    I don't think we have been to that floor yet.
    Mr. Cummings. Let me ask you this, General Dubik.
    You stated in your written testimony that the national 
police has grown by 7,500, with the addition of 5 battalions, 1 
brigade headquarters, and a training school, with 9 more 
battalions rated as an operational readiness assessment level 
two, at the start of the year, and the Iraqi police added some 
45,000 new police to their rolls this year.
    Although I am pleased to hear that there has been 
significant growth of the Iraqi police, especially over the 
last six months, I still remain deeply concerned that we are 
building forces composed of militias and sectarian groups that 
are riddled with corruption.
    What is the point of building a national police force that, 
when left to its own devices, will likely create increased 
sectarian violence, if you agree with that?
    General Dubik. The national police are in need of reform. 
The commanding general of the national police himself is the 
leader of the national police reform program.
    Minister Bulani, the minister of interior, himself is very 
aggressive in encouraging General Hussein to continue the 
reform. So there is no argument from the leaders inside the 
ministry of interior that the national police need reform and 
there is also no argument that this reform will take time.
    That is why they are on the program that they are. That is 
why they have replaced leadership, they have replaced national 
policemen, they have increased the professionalization training 
provided by the Italian Carabinieri. They have established the 
training center and the continue to assess their leadership in 
coordination with the national police transition teams that are 
embedded with each of the national police units.
    Mr. Cummings. December, the December 9010 report makes 
clear that the government of Iraq has taken responsibility for 
determining requirements for the size of the Iraqi Security 
Forces.
    The report also suggests that the current authorized size 
of 555,000 is likely to be increased. However, the report does 
not state what the ultimate size and composition of the Iraqi 
Security Forces will likely be nor does it make clear how much 
future U.S. support would be required due to such an increase.
    Mr. Kimmitt and Lieutenant General Dubik, if the surge has 
created some notable success such that our military forces can 
stand down while the Iraqi forces stand up, what exactly is 
being done to ensure that the ISF has a targeted and calculated 
goal in sight, namely, with regards to its structure, size, and 
equipment level requirements?
    General Dubik. Well, sir, first, I will say that the 
government of Iraq itself has a general goal of about 600,000 
to 650,000 Iraqi Security Forces. But they, like us, look at 
this requirement at least on a semiannual basis, if not much 
more frequently than that, because they want to buy the most 
security for the least amounts of people, the same as we do.
    So I don't know if they are going to grow that large, 
because if they don't have to, they don't want to grow that 
large. So I would answer it that way.
    Second, in terms of our commitment, I think it is right 
that we annually and semiannually come before you to lay out 
the requirements and the needs. This iterative approach is 
exactly right, because we have already been through a case 
where the requirements have grown and when we are in a position 
where the requirements can diminish, we ought to state that 
case before you.
    And I am personally very comfortable with the process that 
is in place for laying that out before you rather than a long 
term, one time here is how we think the future will be based on 
the facts we know today.
    Mr. Cummings. Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman.
    General, Mr. Secretary, thank you for your testimony, for 
being with us today.
    And, General, you get a gold wreath around your stars for 
appearing today and your wife, Sharon, gets two gold wreaths 
for allowing you to be here and to share this time.
    It has been very instructive, very, very helpful, and for 
you to come back during your leave time, which I know is so 
precious to any soldier, and especially to you, who has been 
deployed so long, but you do have our appreciation and we wish 
you continued success in the days ahead.
    Mr. Secretary, thank you again for being with us. General, 
thank you.
    The meeting is adjourned.
    [Whereupon, at 12:26 p.m., the committee was adjourned.]
      
=======================================================================
                            A P P E N D I X

                            January 17, 2008
      
=======================================================================

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            January 17, 2008

=======================================================================
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
       
                                  <all>

</pre></body></html>
